<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2011</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                      ENERGY AND WATER DEVELOPMENT

                        APPROPRIATIONS FOR 2011

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION
                                ________
              SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT
                  PETER J. VISCLOSKY, Indiana, Chairman
 CHET EDWARDS, Texas                RODNEY P. FRELINGHUYSEN, New 
 ED PASTOR, Arizona                 Jersey
 MARION BERRY, Arkansas             ZACH WAMP, Tennessee
 CHAKA FATTAH, Pennsylvania         MICHAEL K. SIMPSON, Idaho
 STEVE ISRAEL, New York             DENNIS R. REHBERG, Montana
 JOHN W. OLVER, Massachusetts       KEN CALVERT, California
 LINCOLN DAVIS, Tennessee           RODNEY ALEXANDER, Louisiana  
 JOHN T. SALAZAR, Colorado          
 PATRICK J. MURPHY, Pennsylvania      
                                    

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
               Taunja Berquam, Joseph Levin, James Windle,
            Tyler Kruzich, and Casey Pearce, Staff Assistants

                                ________

                                 PART 8
                NATIONAL NUCLEAR SECURITY ADMINISTRATION

                                                                   Page
 Defense Programs and Naval Reactors..............................    1
 Nuclear Nonproliferation.........................................  135

                                   S

                                ________

         Printed for the use of the Committee on Appropriations
      PART 8--ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2011
                      ENERGY AND WATER DEVELOPMENT

                        APPROPRIATIONS FOR 2011

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION
                                ________
              SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT
                  PETER J. VISCLOSKY, Indiana, Chairman
 CHET EDWARDS, Texas                RODNEY P. FRELINGHUYSEN, New 
 ED PASTOR, Arizona                 Jersey
 MARION BERRY, Arkansas             ZACH WAMP, Tennessee
 CHAKA FATTAH, Pennsylvania         MICHAEL K. SIMPSON, Idaho
 STEVE ISRAEL, New York             DENNIS R. REHBERG, Montana
 JOHN W. OLVER, Massachusetts       KEN CALVERT, California
 LINCOLN DAVIS, Tennessee           RODNEY ALEXANDER, Louisiana  
 JOHN T. SALAZAR, Colorado          
 PATRICK J. MURPHY, Pennsylvania      
                                    
 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
               Taunja Berquam, Joseph Levin, James Windle,
            Tyler Kruzich, and Casey Pearce, Staff Assistants


                                 PART 8
                NATIONAL NUCLEAR SECURITY ADMINISTRATION

                                                                   Page
 Defense Programs and Naval Reactors..............................    1
 Nuclear Nonproliferation.........................................  135

                                   S

                                ________

         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 61-791                     WASHINGTON : 2010

                                  COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 NORMAN D. DICKS, Washington        JERRY LEWIS, California
 ALAN B. MOLLOHAN, West Virginia    C. W. BILL YOUNG, Florida
 MARCY KAPTUR, Ohio                 HAROLD ROGERS, Kentucky
 PETER J. VISCLOSKY, Indiana        FRANK R. WOLF, Virginia
 NITA M. LOWEY, New York            JACK KINGSTON, Georgia
 JOSE E. SERRANO, New York          RODNEY P. FRELINGHUYSEN, New  
 ROSA L. DeLAURO, Connecticut       Jersey
 JAMES P. MORAN, Virginia           TODD TIAHRT, Kansas
 JOHN W. OLVER, Massachusetts       ZACH WAMP, Tennessee
 ED PASTOR, Arizona                 TOM LATHAM, Iowa
 DAVID E. PRICE, North Carolina     ROBERT B. ADERHOLT, Alabama
 CHET EDWARDS, Texas                JO ANN EMERSON, Missouri
 PATRICK J. KENNEDY, Rhode Island   KAY GRANGER, Texas
 MAURICE D. HINCHEY, New York       MICHAEL K. SIMPSON, Idaho
 LUCILLE ROYBAL-ALLARD, California  JOHN ABNEY CULBERSON, Texas
 SAM FARR, California               MARK STEVEN KIRK, Illinois
 JESSE L. JACKSON, Jr., Illinois    ANDER CRENSHAW, Florida
 CAROLYN C. KILPATRICK, Michigan    DENNIS R. REHBERG, Montana
 ALLEN BOYD, Florida                JOHN R. CARTER, Texas
 CHAKA FATTAH, Pennsylvania         RODNEY ALEXANDER, Louisiana
 STEVEN R. ROTHMAN, New Jersey      KEN CALVERT, California
 SANFORD D. BISHOP, Jr., Georgia    JO BONNER, Alabama
 MARION BERRY, Arkansas             STEVEN C. LaTOURETTE, Ohio
 BARBARA LEE, California            TOM COLE, Oklahoma            
 ADAM SCHIFF, California            
 MICHAEL HONDA, California          
 BETTY McCOLLUM, Minnesota          
 STEVE ISRAEL, New York             
 TIM RYAN, Ohio                     
 C.A. ``DUTCH'' RUPPERSBERGER,      
Maryland                            
 BEN CHANDLER, Kentucky             
 DEBBIE WASSERMAN SCHULTZ, Florida  
 CIRO RODRIGUEZ, Texas              
 LINCOLN DAVIS, Tennessee           
 JOHN T. SALAZAR, Colorado          
 PATRICK J. MURPHY, Pennsylvania    
                                    

                 Beverly Pheto, Clerk and Staff Director

                                  (ii)


          ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2011


                                           Thursday, March 4, 2010.

                NATIONAL NUCLEAR SECURITY ADMINISTRATION

                               WITNESSES

THOMAS P. D'AGOSTINO, UNDER SECRETARY OF ENERGY FOR NUCLEAR SECURITY 
    AND ADMINISTRATOR OF NNSA
BRIGADIER GENERAL GARRETT HARENCAK, PRINCIPAL ASSISTANT DEPUTY 
    ADMINISTRATOR FOR MILITARY APPLICATION, OFFICE OF DEFENSE PROGRAMS
ADMIRAL KIRKLAND H. DONALD, DIRECTOR, NAVAL NUCLEAR PROPULSION
    Mr. Pastor [presiding].
    The hearing will come to order. First of all, good morning 
and thanks for being here. This morning, we have before us the 
administrator of the National Nuclear Security Administration, 
NNSA, Mr. Tom D'Agostino. Welcome. You have been here many 
times.
    Mr. D'Agostino. Yes, sir.
    Mr. Pastor. Welcome again.
    Mr. D'Agostino. Thank you, sir. Appreciate it.
    Mr. Pastor. He is a former nuclear-qualified submarine 
officer who has been appointed to his present position by the 
current administration, and he was also the Administrator in 
the previous administration. And this is a testament to his 
competence and even-handed stewardship.
    Joining him today to testify before the subcommittee are 
Brigadier General Garrett Harencak----
    General Harencak. Yes, sir.
    Mr. Pastor. Good morning.
    General Harencak. Good morning.
    Mr. Pastor [continuing]. And Admiral Kirkland Donald----
    Admiral Donald. Yes, sir. Good morning.
    Mr. Pastor [continuing]. Deputy administrator for naval 
reactors. They are here today to present the president's fiscal 
year 2011 request for the NNSA. After years of relatively flat 
budgets, the administration requests $11.2 billion for the 
NNSA, an increase of $1.3 billion or a 13 percent increase.
    So, today, we look forward to discussing in detail the 
proposed increases for weapons and naval reactors, the 26 
percent increase for nonproliferation activities which will be 
covered in detail in a second hearing on March 11th, maybe 
talked about today or at least we will interweave into the 
discussion today.
    And so we are particularly interested in hearing the 
explanations for these significant increases and how the NNSA 
proposes to execute the expanded programs.
    Mr. D'Agostino, I ask you to ensure that the hearing 
record, the questions for the record, and any supporting 
information requested by the subcommittee are delivered in 
final form to the subcommittee no later than 4 weeks from the 
time you receive them. Members who have additional questions 
for the record will have until close of business tomorrow to 
provide them to the subcommittee office.
    With these opening comments, I would like to yield to our 
ranking member for any opening comments that he may wish to 
make.
    Rodney.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Good morning, Mr. Administrator.
    Mr. D'Agostino. Good morning, sir.
    Mr. Frelinghuysen. It is good to see you before the 
committee again and knowing that you bring a lot of experience 
and continuity to the job. I think it is a good reflection that 
that choice has been made again for you to continue your work.
    Mr. D'Agostino. Thank you.
    Mr. Pastor. General Harencak, good to see you. Thank you 
for your service.
    Admiral Donald, honored to be with you.
    So we have got two submariners on the dais today. Oh, boy. 
[Laughter.]
    It is a special breed.
    Admiral Donald. Go Navy. [Laughter.]
    General Harencak. One bomber pilot.
    Mr. Frelinghuysen. One bomber pilot. [Laughter.]
    The staff just put in front of me the whole issue of where 
we are going with the Joint Strike Fighter just to really 
continue to make my day here.
    Voice. Hopefully, we will not get vetoed this morning. 
[Laughter.]
    Mr. Frelinghuysen. I hope not. I hope not.
    As the chairman has said, the administration's budget 
request for NNSA is $11.2 billion, a 13 percent increase over 
fiscal year 2010. Your people ensure the reliability and 
security of our nuclear weapons, support the performance of our 
nuclear-powered naval fleet, and fight the spread of fissile 
material around the world, and we are grateful for that 
service.
    Without your work, this would be a much more dangerous 
world, and I thank you and your people for your expertise and 
dedication. That is heartfelt. Thank you.
    For years, we have been hearing that our nuclear weapons 
infrastructure and our personnel suffer from underinvestment 
and neglect. Well, I am encouraged that the administration has 
increased investment in your mission, and more funding may be 
on the way to help with those--that infrastructure improvement. 
Our work force still needs innovative management and ideas. 
Those efforts come from you.
    And I hope you will tell us today what ideas you have to 
further inspire your work force.
    I support the president's position on nuclear weapons that 
he has articulated in recent weeks and has demonstrated in this 
budget that has been submitted to us. I, too, believe that we 
should aspire to a world free of such devices. And I, too, 
believe that, in order to get there, we are going to need a 
completely different strategic environment.
    In the meantime, it falls to you gentlemen to ensure that 
our weapons are reliable and secure and that our naval fleets 
can do their jobs each and every day. These missions must not 
be shortchanged, and you must help us have confidence that any 
additional funds, whatever their sources, will be used 
efficiently and effectively.
    Thank you, Mr. Pastor, for the time, and I yield back.
    Mr. Pastor. Thank you, Mr. Frelinghuysen.
    We have a copy of your written statements, and so we will 
hear testimony and we will try to stay within the 5 minutes the 
best we can.
    And so, Administrator, you are on first.
    Mr. D'Agostino. Thank you, sir. Thank you, Mr. Chairman, 
Mr. Frelinghuysen, members of the subcommittee, appreciate 
seeing everybody here today.
    My name is Tom D'Agostino. As you know, I am the 
administrator for the NNSA, and I am accompanied by my two 
deputy administrators who run a significant portion of the 
NNSA, Brigadier General Harencak for defense programs, and 
Admiral Kirk Donald for naval reactors.
    It is my real pleasure to be here. Under your leadership, 
Mr. Chairman, the committee has been a proponent of our 
programs and initiatives. We thank you for the support. And the 
committee's backing will be even more critical as we seek to 
move our programs forward to address the central components of 
the president's nuclear security vision.
    Last year, when I appeared before you, the focus of my 
testimony was on the continuing transformation of an outdated, 
Cold War nuclear weapons complex and shifting it into a 21st 
century nuclear security enterprise and our initial efforts at 
implementing the president's announcements on securing the most 
vulnerable material worldwide.
    Since that time, we have defined a portfolio of programs to 
meet the president's emerging nuclear security agenda. Our 
fiscal year 2011 budget request for these programs is $11.2 
billion, an increase of slightly over 13 percent from the 
previous year.
    In developing this portfolio, Secretary Chu and I worked 
very closely with Secretary Gates to ensure that we remain 
focused on meeting the Department of Defense requirements. 
Within our overall funding request, weapons activities 
increases nearly 10 percent to a level of $7 billion. Defense 
nuclear nonproliferation increases 26 percent to a level of 
$2.7 billion. And naval reactors increases by more than 13 
percent to a level of $1.1 billion.
    Our request can be summarized in four components that 
collectively ensure that we implement the president's overall 
nuclear security agenda as outlined in his April 2009 Prague 
speech and reinforced in the State of the Union Address.
    First, our request describes NNSA's crucial role in 
implementing the president's nuclear security vision and his 
call to secure all vulnerable nuclear materials around the 
world within 4 years. The $2.7 billion request for nuclear 
nonproliferation programs form the heart of that vision of 
moving to secure material in 4 years. Nearly $560 million for 
global threat reduction initiative to secure vulnerable 
materials, over a billion dollars for our fissile material 
disposition program to permanently eliminate over 68 metric 
tons of surplus weapons-grade plutonium, and more than 200 
metric tons of surplus highly enriched uranium, and over $350 
million for nonproliferation and verification research and 
development programs to provide technical support for the 
president's arms control and nonproliferation agenda, including 
a new capability at our Nevada test site to fully integrate 
treaty verification and arms-control experiments.
    The second component of our investment is in the tools and 
capabilities required to effectively manage the nuclear weapons 
stockpile. Based on preliminary analysis of the draft nuclear 
posture review, we concluded that maintaining the safety, 
security, and effectiveness of the enduring stockpile requires 
increased investments to strengthen an aging physical structure 
and sustain a deleted technical human capital base
    Our request includes more than $7 billion to ensure that we 
have capabilities required to complete ongoing weapons life 
extension programs, to strengthen the science, technology, and 
engineering base, and reinvest in the scientists, technicians, 
and engineers who perform this mission.
    These activities are consistent with NNSA's stockpile 
stewardship and management responsibilities as outlined in the 
fiscal year 2010 National Defense Authorization Act. Vice 
President Biden recently noted the need to invest in a modern, 
sustainable infrastructure that supports the full range of 
NNSA's missions, not just stockpile stewardship.
    He stated that this investment is not only consistent with 
the nonproliferation agenda, it is essential to it, and that 
there is an emerging bipartisan consensus that now is the time 
to make these investments to provide the foundation for future 
U.S. security. A key example of that consensus was reflected in 
the January Wall Street Journal article by Senator Sam Nunn and 
Former Secretaries George Schultz, Henry Kissinger, and William 
Perry.
    That leads me to the third component of our investment in 
recapitalizing our infrastructure and deterrent capability into 
a 21st century enterprise. As the vice president said last 
month, some of the facilities we use to handle uranium and 
plutonium date back to the days when the world's great powers 
were led by Truman, Churchill, and Stalin. The signs of age and 
decay are becoming more apparent every day.
    Our request includes specific funds to continue the design 
of the uranium processing facility at our Y-12 facility and the 
construction of the chemistry and metallurgy research 
replacement facility at Los Alamos National Laboratory.
    With respect to the naval reactor's infrastructure 
question, Admiral Donald will discuss later the content of the 
naval reactor's request including the DOD decision to address 
the sea-based strategic deterrent, particularly, the Ohio class 
ballistic missile submarine and the impact on the reactor plant 
development, manufacturing technologies, and the need to refuel 
the land-based prototype reactor.
    Mr. Chairman, investing now in a modern, sustainable 
nuclear security enterprise is the right thing to do. 
Investment will support the full range of nuclear security 
missions to ensure the future U.S. security. A range of 
missions include stockpile stewardship, nonproliferation, arms 
control treaty verification, nuclear counterterrorism, nuclear 
emergency response, nuclear forensics, and the naval nuclear 
propulsion program.
    Finally, the fourth component, one that ties all of our 
missions together, is our commitment to aggressive management 
reforms across the NNSA. With increased resources you provide 
us comes our increased responsibility to be effective stewards 
of the taxpayer's money and to ensure that NNSA is an 
efficient, cost-effective enterprise. We take this 
responsibility very seriously.
    Take for example, the cost associated with our physical 
security posture. As you are well aware, each year the cost of 
these efforts have risen. We initiated a zero-base security 
review to implement greater efficiencies and to drive down cost 
while sustaining security capabilities. We recently concluded 
our review at the Nevada site and have identified potential 
areas for savings, reviews at other sites will begin soon.
    Next, our supply chain management center has already saved 
taxpayers over $130 million, largely through e-sourcing and 
strategic sourcing initiatives. And you may be aware that our 
Kansas City plant recently won the Malcolm Baldridge Award for 
quality, innovations, and performance excellence.
    And we are looking to implement what we have learned at the 
Kansas City plant at all of our other sites in what we call the 
Kansas City model to ensure best practices across the 
enterprise.
    Finally, we will emphasize performance and financial 
accountability at all levels of our organization. In 2009, our 
programs met or exceeded 95 percent of their performance 
objectives. And over the past 2 years, NNSA successfully 
executed consecutive large funding increases in several 
nonproliferation programs while reducing the percentage of 
carryover, uncosted, and uncommitted balances.
    Importantly for the committee's consideration, we have the 
people and the processes in place to initiate immediately the 
increased mission work included in this budget request.
    Mr. Chairman, we will ensure that our stockpile, our 
infrastructure, and our missions are melded into a 
comprehensive, forward-looking strategy that protects America 
and its allies. These investments in nuclear security are now 
providing the tools to tackle a broader range of challenges. 
Now, we must continue to cultivate the talents of our people to 
use these tools effectively because our people are the key to 
our success.
    Thank you, Mr. Chairman. I would like to ask your 
permission to allow Admiral Donald to give some short remarks, 
and we would be pleased to respond to your questions.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1791A.001
    
    [GRAPHIC] [TIFF OMITTED] T1791A.002
    
    [GRAPHIC] [TIFF OMITTED] T1791A.003
    
    [GRAPHIC] [TIFF OMITTED] T1791A.004
    
    [GRAPHIC] [TIFF OMITTED] T1791A.005
    
    [GRAPHIC] [TIFF OMITTED] T1791A.006
    
    [GRAPHIC] [TIFF OMITTED] T1791A.007
    
    [GRAPHIC] [TIFF OMITTED] T1791A.008
    
    [GRAPHIC] [TIFF OMITTED] T1791A.009
    
    [GRAPHIC] [TIFF OMITTED] T1791A.010
    
    [GRAPHIC] [TIFF OMITTED] T1791A.011
    
    [GRAPHIC] [TIFF OMITTED] T1791A.012
    
    [GRAPHIC] [TIFF OMITTED] T1791A.013
    
    [GRAPHIC] [TIFF OMITTED] T1791A.014
    
    [GRAPHIC] [TIFF OMITTED] T1791A.015
    
    [GRAPHIC] [TIFF OMITTED] T1791A.016
    
    [GRAPHIC] [TIFF OMITTED] T1791A.017
    
    [GRAPHIC] [TIFF OMITTED] T1791A.018
    
    [GRAPHIC] [TIFF OMITTED] T1791A.019
    
    [GRAPHIC] [TIFF OMITTED] T1791A.020
    
    [GRAPHIC] [TIFF OMITTED] T1791A.021
    
    [GRAPHIC] [TIFF OMITTED] T1791A.022
    
    [GRAPHIC] [TIFF OMITTED] T1791A.023
    
    [GRAPHIC] [TIFF OMITTED] T1791A.024
    
    [GRAPHIC] [TIFF OMITTED] T1791A.025
    
    [GRAPHIC] [TIFF OMITTED] T1791A.026
    
    [GRAPHIC] [TIFF OMITTED] T1791A.027
    
    [GRAPHIC] [TIFF OMITTED] T1791A.028
    
    [GRAPHIC] [TIFF OMITTED] T1791A.029
    
    [GRAPHIC] [TIFF OMITTED] T1791A.030
    
    [GRAPHIC] [TIFF OMITTED] T1791A.031
    
    [GRAPHIC] [TIFF OMITTED] T1791A.032
    
    [GRAPHIC] [TIFF OMITTED] T1791A.033
    
    [GRAPHIC] [TIFF OMITTED] T1791A.034
    
    [GRAPHIC] [TIFF OMITTED] T1791A.035
    
    [GRAPHIC] [TIFF OMITTED] T1791A.036
    
    [GRAPHIC] [TIFF OMITTED] T1791A.037
    
    [GRAPHIC] [TIFF OMITTED] T1791A.038
    
    [GRAPHIC] [TIFF OMITTED] T1791A.039
    
    [GRAPHIC] [TIFF OMITTED] T1791A.040
    
    [GRAPHIC] [TIFF OMITTED] T1791A.041
    
    [GRAPHIC] [TIFF OMITTED] T1791A.042
    
    [GRAPHIC] [TIFF OMITTED] T1791A.043
    
    [GRAPHIC] [TIFF OMITTED] T1791A.044
    
    [GRAPHIC] [TIFF OMITTED] T1791A.045
    
    [GRAPHIC] [TIFF OMITTED] T1791A.046
    
    Mr. Pastor. Yes, sir.
    Mr. D'Agostino. Thank you, sir.
    Admiral Donald. Mr. Chairman and Ranking Member 
Frelinghuysen and members of the subcommittee, thank you for 
the opportunity to appear before you today. I am the director 
of Naval Reactors, an organization that has been in the 
business of providing reactor plants for our naval ships for 
over 60 years. I am the fifth director of Naval Reactors, I am 
the last in a line that began with Admiral Hyman Rickover when 
he started the program in 1948. I am now in my 6th year as the 
director of Naval Nuclear Propulsion.
    Our nuclear fleet includes all of our submarines and 
aircraft carriers, some 82 ships that, right now, are operating 
throughout the globe in support of America's interests and to 
keep at bay those who wish us harm.
    My job is to ensure that the reactor plants on those ships 
are operated in a safe and effective manner. We have wonderful 
young men and women who are operating those ships. It is my 
responsibility to ensure that they are able to do their work 
and operate those ships as effectively as possible.
    I do keep my eye on daily operations. That is a large part 
of what I do, but I also have to keep my eye on what happens in 
the foreseeable future and to ensure that we have a sustainable 
industrial base and technology to support the Navy of the 
future.
    After a long period of relatively stable funding in my 
budget, you did point out that we do have an increase over what 
we had in previous years. During my tenure, we have worked very 
hard to adjust and rebalance within our existing budget to 
ensure that I meet some nondiscretionary work requirements, 
such as building the extended core facility fuel handling 
facility and dealing with aging facilities and all of the work 
that goes with maintaining an industrial base that is sometimes 
approaching over 50 years of age. We have done that 
successfully. I think we have done that efficiently, including 
some streamlining in our business, as Mr. D'Agostino had 
mentioned, to ensure we are being good stewards of the 
taxpayer's trust.
    This year, however, as you have pointed out, the Navy is 
beginning some additional work that requires some additional 
resources. We have begun design of the follow-on to the Ohio 
class ballistic missile submarine, which has provided our 
nation with a survivable nuclear deterrent for the past several 
decades.
    To meet the operational requirements of that new platform, 
I need to design a new reactor plant. Our goals in building 
this reactor plant are to improve the operational availability 
of that ship to make it more available over its life and, also, 
to reduce total operational cost over life. And the key element 
to that is a new reactor core that we want to design to last 
for the life of the ship.
    We have done that for the Virginia class submarines with a 
33-year core. We are seeking to extend that to 40 years for the 
Ohio class replacement.
    This effort dovetails well with the second requirement, and 
that is to refuel our land-based prototype in Saratoga Springs, 
New York, with technology that will be used in the core for the 
Ohio class replacement. That land-based reactor plant is 
running out of fuel. We have to do the work here in the near 
future so the work that is in my budget supports that effort.
    It is also one of our premier training platforms for our 
sailors. Over half of our sailors that go to our ships every 
single year go through New York to get their practical training 
in operations of reactor plants.
    Finally, we need to recapitalize the expanded core facility 
in Idaho Falls where all of our naval spent nuclear fuel goes. 
This facility is over 50 years old. It has served us well. It 
is certainly serviceable, but it is also a 50-year-old 
facility. And we are absolutely dependent on that facility 
operating properly and efficiently to keep this flow of spent 
fuel coming out of our ships, out of our shipyards, and put 
into proper care and dry storage in the state of Idaho, not 
only to meet the needs of the nuclear fleet, but also, to meet 
our commitments to the state of Idaho for proper handling of 
that material.
    I recognize that an increase in budget in this economic 
environment is going to be a challenge for the committee, but I 
personally assure you that the history of this program has 
shown that we are good stewards of the taxpayer's trust for 
over 60 years, and I will personally ensure that that continues 
as we take on these new projects in the future.
    I will be ready and willing and able to answer any 
questions you may have about the details of the programs that I 
have presented today. Thank you very much for your time.
    Mr. Pastor. Thank you, Admiral.
    As I recall, I think in the 2008 report, we had asked for--
there had been a set of questions, I think, in that report that 
we asked about where we were and where we were going. And I 
asked last year when I was given this responsibility and they 
said, well, we still do not have the answers. Okay.
    And I asked these questions, not because I have a fight 
with you, because I do not--because I think we are all on the 
same platform. And that is, as stewards of the taxpayer's 
money, we need to ensure that those monies are invested in a 
proper form so that, as you guys well know, we want to get the 
big bang for the dollar.
    You heard the ranking member, and I, too, support this 
administration. I worked very hard to get the president 
elected. And I, too, along with all my colleagues, believe in a 
strong defense. I mean, that is not the issue.
    But I think all of us here on the dais take the 
responsibility--especially during these times, as the president 
said in his State of the Union, that we just do not have the 
luxury of a lot of money. We are in a situation where--and we 
could go through all the facts. We need to make sure that every 
dollar is well spent.
    When I was given this responsibility last year, I 
recognized that I had a lot of catch-up to do. And I will 
readily admit that. I said most of the generals I met, we were 
dealing with building projects because they were on the core 
side. And now, I am dealing with generals that want to bomb 
things. [Laughter.]
    So I said, well, even though I have sat in these hearings, 
you know, it was interesting because all of a sudden, I had 
these meeting. And I needed to have them, and I had them only 
because I needed to become well-informed.
    And I remember I was told early in the spring that there 
was a report to be coming to us probably early fall. And it was 
the nuclear posture review. And I asked why was this important. 
They said, well, this is going to tell us what the short-term 
goals are as well as the vision and the long-term goals.
    I said, well, it would be good to look at that review so 
that, as we invest taxpayer's money that, again, they are 
investments that we need. And so we, as a subcommittee, kind of 
said, well, we are going to hold off a little bit. And as you 
know, it has created a lot of commotion.
    But that was not the intent. The intent was, we want to see 
the review and be able to, as oversight, be able to invest the 
money in a wise manner.
    But it was a good time for me to learn about these 
programs, and I learned how the development of some of these 
weapons was linked to the F-35 and how we had to keep that in 
line. And some other people said, well, you can wait for the 
review, but it is not going to change much, so have faith in 
us, go ahead and fund it. I said okay. Let us look at that.
    But, finally, the argument that won with me was that--and 
it was, I think, one of your undersecretaries. He had just come 
on board. He said, well, the problem you are creating is that 
we have staff that have been working and are working. And if it 
is unclear to them what is going to happen in this budget, then 
they may start looking and we are going to lose that talent.
    And I figured, you know what, it is a great argument. So we 
worked out a compromise with you.
    So I did not know what my status was going to be this year, 
and as we came into the new year, I was told that I would have 
the honor again to work on this committee. And guess what? I 
asked for it. The first thing when they told me that, I said I 
want to be prepared because the administrator is going to come. 
I want to ask him questions that are important. Where is the 
review?
    And they said, it is coming. I said, when? We do not know, 
but it is coming. I said, well, wow. [Laughter.]
    And then I read the Washington Post, I guess it was a 
couple of days ago where there is slippage on the F-35. And I 
am saying, well, I do not have the report which, again, it was 
short term, long term. There is slippage now on the F-35, which 
I was convinced that was linkages, they are very important.
    And then the budget comes out, and it says there is an 
increase of $1.3 billion. And taking the president seriously 
and being a steward of the taxpayer's money, I said, wow, how 
are they going to spend this $1.3 billion?
    And so I ask these questions in that manner, not because 
there is any animosity to you, as we both agree that we are 
stewards. And so I have to tell you that, when we start marking 
up, you know, maybe at April, mid-April or late April or 
sometime in the spring, you know, it is going to be a question.
    And I guess the question is this--and you can take a little 
time today but, probably, it is going to take more 
conversations in the future. Can you describe how you think you 
can execute this level of funding given the overlaps in 
programs, skill sets necessary for things like life-extension 
programs, dismantling activities, and more information that we 
need in our oversight, probably the less commotion we will have 
this year.
    And, also, somehow in there, you are going to have to link 
up the F-35 because, last year, you convinced me it was very 
important, but then with the slippage, where am I at today?
    Mr. D'Agostino. Thank you, Mr. Chairman. I would be glad to 
answer that question. It may take more than 5 minutes.
    Mr. Pastor. If it is going to take more than 5 minutes----
    [Laughter.]
    But what I am saying is--these are going to be 
conversations we are going to have. But I just wanted to at 
least let you know that some of the concerns that we have.
    Mr. D'Agostino. Certainly.
    Mr. Pastor. And so this is not going to be the last time we 
are going to discuss these issues, but at least I will give you 
a chance to take 5 minutes to----
    Mr. D'Agostino. Certainly. Well, anticipation we are going 
to be seeing each other in the future.
    Mr. Pastor. Yes, sir.
    Mr. D'Agostino. Thank you. I would be glad to describe a 
little bit. Now, I will leave the F-35 question to my Air Force 
colleague. But let me start with the nuclear posture review.
    As you may or may not have been aware, our original goal 
was to have the nuclear posture be linked with the release of 
the president's budget so that both would come out together. 
But what we recognize in the administration, and based on early 
analysis from the nuclear posture review, is what is clear, as 
we look to implement the elements of the president's speech 
that he gave in Prague vision--fewer numbers of warheads, more 
effort in nuclear non-proliferation, maintaining the scientific 
and technical expertise. Certain principles remain constant.
    And so the president's request basically reflects the need 
to reinvest in certain systems because they are getting older 
every year, that we had to invest in our people and that we had 
to recapitalize our infrastructure.
    The nuclear posture review release has been delayed a bit. 
The desire--the reason for the delay has less to do with the 
specific program and budget we have before us today and more to 
do with making sure that the policy pieces are well understood 
and communicated within the administration and getting the 
wording exactly right because we recognize that not only 
members in Congress are very much interested in wanting to know 
what our strategy and policy is, but actually it will have a 
worldwide impact. So we had to get the wording exactly right 
and make sure that the president has had a chance to read every 
single element of that wording on policy.
    But if I want to go to your question directly, how could 
the NNSA execute such a large increase. We looked at this 
question before I went and made the case internally in the 
administration. We basically have the increase broken up into 
four main areas.
    One is operations. One is procurement. One has to do with 
construction. And then one has to do with people, bringing in 
new people because we recognize that you cannot hire--you know, 
this is not about hiring an extra billion dollars worth of 
people to particular elements.
    On the operations side, I have looked very closely at the 
costing information. What we are doing is accelerating ongoing 
work. One example is the W-76 warhead life extension program is 
accelerating to get to the full production rates. So it is not 
necessarily something that we would start from scratch and get 
going right off from a dead stop. It is accelerating ongoing 
work that has to happen.
    On the procurement side, in April last year, I established 
an enterprise reengineering team because I recognized that in 
order to ramp ourselves up to do work that I felt was 
necessary, we needed to change the way we do business. We asked 
for and received a tremendous number of recommendations from 
the field, not just from headquarters but from the field 
because that is where the majority of the work happens.
    We got 109 proposals, and we are in the process of 
implementing key elements of those. Later on, so I do not take 
up all of the time talking about those, we have some very 
specific recommendations that we are implementing on management 
reform that will help us in the procurement area.
    The third element is construction. A key feature of this 
president's budget request is the significant resources that 
are requested for constructing large projects. The deputy 
secretary will be issuing very soon new construction policy for 
the Department of Energy. We are committed to getting off of 
the GAO high-risk list in this area and to ramping up and 
improving dramatically the construction project execution.
    It will happen via a couple of key things. Number one is, 
instead of committing to a project performance with a design 
cost, schedule, and scope, we are going to spend more money up 
front figuring out exactly what we want before we put in cement 
and ask the Congress to fund something. Then once we, for 
example, go 90 percent design on some of these large 
construction projects, and before we start asking for 
construction money, that fashion will have that baseline locked 
down solidly.
    Another element of improvements in construction have to do 
with making sure we have the right people. So we will have full 
federal project directors, fully qualified federal project 
directors on every single project. We have that now. We have 
just started that.
    A third element has to do with having critical decision 
points on every line-item project, and having independent cost 
estimates done. This is a bit new. Instead of having 
independent cost estimates done at the performance baseline, we 
are going to do it at end of critical decision one stage in 
order to have somebody outside of the organization validate the 
numbers independent of the NNSA.
    The final element of why we think we can manage growth has 
to do with human resources. And, frankly, in this request, the 
actual increase in personnel that we expect is fairly limited, 
probably about 300 folks overall. And for an organization of 
3,000 people, roughly, that is a very manageable increase that 
can be put into play.
    About half that increase comes in the naval reactor side. 
The other half of the increase comes in the combination of the 
defense programs and nonproliferation side. We feel very 
confident we can execute that type of an increase. There is a 
lot I could say about our human resources programs, but in the 
interest of time--and maybe will come back to that a little bit 
later on, sir--I would like to turn it over to General Harencak 
to talk about what is going on with the B-61 and the F-35.
    General Harencak. Yes, sir. And before, if I may, Mr. 
D'Agostino, just say a few words about the NPR.
    We, of course, want the NPR to be released but we would 
certainly--and the reason is because we are convinced the 
defense programs within NNSA that it certainly speaks to this 
budget and to what we need without getting into what it will 
say, I will tell you that we have been key members in NNSA at 
crafting this future NPR product from very early on.
    From very early on, there was this wide-ranging and diverse 
group that came together, and there was very clear consensus 
from our standpoint of the nuclear posture review that our NNSA 
equities, specifically, in making sure that we have a safe, 
secure, and effective stockpile, as the president has asked us 
to do, required investment.
    And this budget reflects early analysis of what the NPR 
says, specifically, four key areas of them one is completion of 
design and commencement of construction over the timeframe of 
the NPR of the CMR building, plutonium work, completion, 
design, commencement, and construction of Y-12, the uranium 
processing facility so we can do uranium work, ensuring 
capabilities for our LEPs--our life-extension programs--
specifically, completing the W-76 at a ramped-up production 
rate and the B-61 in order to make it to the F-35, which I will 
get to in a minute, and, of course, strengthening our science, 
technology, and engineering base so we could do all these 
things without ever having to test again.
    So I can tell you from that standpoint, sir, we have been 
heavily involved in the NPR. And you will find, when it does 
come out, that there was this very real consensus for our 
aspect of it for reinvestment in our enterprise to do those and 
many other things. But those are the main four key areas.
    Mr. Frelinghuysen. And, Mr. Chairman, would the gentleman 
yield for a minute?
    Mr. Pastor. Sure.
    Mr. Frelinghuysen. So it is fair to say that all three of 
you have been integrated into the nuclear posture review 
process?
    Mr. D'Agostino. Yes, sir.
    Mr. Frelinghuysen. You have been in from the beginning, and 
that, as you said earlier, the budget that is before us today, 
to some extent, reflects already the recommendations that we 
should anticipate that we have been waiting for?
    Mr. D'Agostino. Yes, sir.
    Mr. Frelinghuysen. Is that accurate?
    Mr. D'Agostino. Yes, sir. Absolutely accurate.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    General Harencak. As far as the F-35, if I may, again, 
another thing that is way above my pay grade, as many things 
are, is where the F-35 is. Our--my job in defense programs is 
to produce a life-extended B-16 that can mate with the F-35 in 
2017 for a first-production unit.
    That is a requirement that I believe will stand regardless 
of the F-35 slippage because this is about a weapon being made 
into an aircraft, an analog weapon now that needs to be made 
into a digital weapon. This is less about numbers of airframes. 
In fact, it is hardly at all about numbers of airframes. And it 
is about designing a system that allows this refreshed weapon 
to talk to this 21st century airplane.
    So we are talking software. We are talking a first-
production unit. We believe our entire enterprise is focused on 
getting this very difficult job done by 2017. And we are 
talking first-production units. So we are talking, to make that 
capability to mate a weapon with an airplane.
    It does not matter. For our enterprise, we have to produce 
this life-extended B-61 in time for 2017 so we can begin this 
mating process.
    Mr. D'Agostino. Mr. Chairman, if I could ask Admiral Donald 
to comment as well on your question because Admiral Donald has 
got a series of management activities that he has done that 
talks about cost as well.
    Admiral Donald. I, too, would prefer that the NPR be out 
right now, but, again, it is even above my pay grade as well. 
[Laughter.]
    I do not think it is in question the fact that the sea-
based strategic leg of the deterrent will still be a 
requirement whatever the NPR--however it comes out, every 
indication I have, that is going to be a piece of it. And our 
need to recapitalize the Ohio class does not change because it 
is really set to a one-for-one replacement in starting when 
those ships start coming off service around the 2025 to 2026 
timeframe.
    I recognize that sounds like a long way out, but, for me, 
what that means is I have to start buying components, designing 
and be ready to buy components for that reactor plant in 2017. 
So that is why the timing is as important as it is right now 
and why it is as if we are going to continue with a sea-based 
strategic deterrent, that is why this program, for me, starts 
now.
    The second piece as far as execution, ability to execute 
the amount of money that we have in here, we have designed at 
Naval Reactors over 30 reactor cores over the history of the 
program, over 24 reactor plants. We have a very good 
understanding of the metrics associated with successful design 
and delivery on time. We believe that--we are confident that we 
have got the resources in expertise. We are going to have to 
hire some additional people, as Mr. D'Agostino pointed out.
    But, obviously, the way you do that is you draw talent from 
within the organization that has had experience in doing these 
things and then backfill some of those other places with new 
hires. So we do not get too much green labor involved in the 
critical design work in our reactor plant.
    So we have a very clear plan of how to go forward in this 
design to make sure that it is successful. The funding piece of 
it is critical because one of our metrics of success is, if you 
are going to be successful and deliver on time, the design has 
to be mature. We had good experience in the Virginia-class 
program with that ship being between 45 and 50 percent mature 
in design at the time of starting construction.
    We believe we need to be even better than that to get into 
the Ohio-class replacements and ensure that ship delivers on 
time. So it is our objective to ensure that design is mature. 
That is why we are starting now.
    Mr. Pastor. I just want to tell the subcommittee members 
that we are due to be a vote here in maybe about 10, 15 
minutes. But we will stay here as long and then we will come 
back.
    Mr. Frelinghuysen. The focus here has been pretty much on 
the nuclear posture review. And for some, you might say a 
vacuum has been created. But you are sort of telling me--
telling us collectively you are filling that vacuum because you 
have had a place at the table. Is that a good characteristic?
    Mr. D'Agostino. Yes, sir.
    Mr. Frelinghuysen. And when was that? I mean, is that way 
back when? Or is it ongoing?
    Mr. D'Agostino. I would--if I could offer--we have got----
    Mr. Frelinghuysen. It sort of worries us here, obviously, 
we have a budget to meet here, and we have done some things and 
made some recommendations over the last couple of years that 
have sort of been based on some answers coming--forthcoming.
    Mr. D'Agostino. Right. Yes, sir. We have been involved from 
the very beginning. The NNSA is a key team member of what we 
call the interagency process, which includes deputy assistant 
secretary, assistant secretary level folks getting together, 
teeing up policy, strategy, and how that impacts the stockpile 
itself, and then ultimately the infrastructure; that whole line 
of questioning that the chairman identified in his opening 
remarks that the committee is interested in doing.
    So we started last April in high gear, throughout the 
summer and into the fall.
    Mr. Frelinghuysen. We being those who are at the table or 
you as NNSA?
    Mr. D'Agostino. I was involved in the deputy's committee 
meetings with the Defense Department.
    Mr. Frelinghuysen. And Mr. Simpson sort of mentioned to me 
this issue of pay grade here. I mean, I assume something is 
about to be rolled out. It was supposed to be rolled out in 
February.
    Mr. D'Agostino. Right.
    Mr. Frelinghuysen. I mean, I do not think there is anything 
wrong with an ongoing debate at a higher pay grade.
    Mr. D'Agostino. Right.
    Mr. Frelinghuysen. There are, obviously, treaties and 
strategic decisions that have to be reached in terms of our 
negotiations for reductions and stockpiles and so on.
    Mr. D'Agostino. Well, this is the president's budget 
request, and prior to releasing it, the elements that we are 
asking for were discussed in great detail through the whole 
change of command within the administration.
    So the whole administration supports this request, whether 
it is the Defense Department, the State Department, the White 
House, the whole--this is very consistent with our early 
analysis of the NPR that we had to take care of the stockpile. 
We had to reinvest in our infrastructure since, in many cases, 
it is 57 to----
    Mr. Frelinghuysen. We are all for those things.
    Mr. D'Agostino. Yes.
    Mr. Frelinghuysen. I am not sort of indicating----
    Mr. D'Agostino. Right.
    Mr. Frelinghuysen [continuing]. We are not for them.
    Mr. D'Agostino. And I think what we have before--I have 
personally reviewed the final versions of the draft NPR, 
provided comments back. We did this before the budget was 
submitted. And what is happening right now is making sure that 
the final policy questions with respect to--that do get 
discussed--that do not impact this submission are being--the 
``i''s are being dotted. The ``t''s are being crossed. We have 
to make sure that it is absolutely right.
    Mr. Frelinghuysen. Administrator, we are glad you are 
there. You do provide that level of continuity. You are frank 
and blunt, obviously, as you sit at the table with your 
colleagues.
    I serve on the Defense Subcommittee on Appropriations, and 
we, obviously, watch for the alarm, you know, what the Chinese 
are doing with their subs. I mean, they are going--they are 
moving ahead. We have struggled to make, come up with a couple 
each year, try to afford them. And I side in--I guess I cannot 
talk about that too much, but an interesting thing--combat 
aircraft with, I think, Admiral Fillman is it and General 
Scott, one of your Air Force general colleagues.
    I must say they were pretty circumspect as to where the F-
22 Joint Strike Fighter is going. I know you are involved in 
the weapons integration, but it worries me here that this delay 
here. I just want to make sure that you feel that you are at 
the table each and every day.
    Mr. D'Agostino. Yes, sir. I know for a fact I am at the 
table each day on this particular topic. It has clearly been my 
focus, and I think the committee has been very clear--the 
subcommittee has been very clear over the last 2 years in 
asking very consistently the questions and laid it out very 
clearly in its request----
    Mr. Frelinghuysen. We are counting on you.
    Mr. D'Agostino. Yes, sir.
    Mr. Frelinghuysen. We are absolutely counting on you.
    I know Mr. Simpson has been here, and I think the chairman 
and I have taken a lot of time. So maybe--and I have all sorts 
of questions on the B-61 bomb and all sorts of things, but Mr. 
Chairman, I will be happy to give up and let Mike get in here. 
[Laughter.]
    Mr. Simpson. Well, thank you. And thank you all for being 
here today. It is good to see you again.
    A few questions. It might not surprise you that I am 
interested in the progress on the upgrade of the Building 651, 
the storage vault in Idaho that NNSA is funding. Can you tell 
me how it is going? And can you help assure us that we are not 
spending so much money on the paperwork instead of doing the 
upgrading?
    I understand that the critical one decision package, the 
paperwork that needs to be done to proceed, is awaiting 
approval in the Office of the NNSA General Counsel and NNSA 
National Environmental Policy Act Compliance Office. How is all 
this going?
    Mr. D'Agostino. I think it is going well. I think we are 
off of top-dead center, which is we are starting to get this 
moving. Like you probably, I am a bit frustrated about us 
getting this moving.
    We do have the critical decision one package, which is to 
get the options down to move forward. There were some concerns 
in the Office of Nuclear Energy with respect to making sure 
that whatever we do, the work in that facility is consistent 
with the site's NEPA analysis, figure out do we need to do an 
environmental assessment, EIS, or are we covered within that 
existing portfolio because we want to be consistent with what 
the citizens of Idaho are expecting that are going to be 
happening in that facility.
    I have talked personally to Pete Miller, who is the 
assistant secretary for nuclear energy, about this project. The 
key focus of the project is security upgrades of that facility 
so additional work can get done. What we are working on is 
making sure that the analysis that we have--making sure that we 
are crystal clear on the work that gets done and how that 
impacts or does not impact the existing framework that we can 
operate in.
    With respect to your question on how much we are spending 
on doing the studying versus the actual work itself, we have 
spent, you know, roughly in the $20,000 to $30,000 range so far 
on the review work itself. Given the project is expected, I 
think, in the $14 million to $15 million range, it is a fairly 
small percentage, but it is money that is worth spending. And 
if we have to do a little bit more to make sure the 
environmental stuff is actually covered, then I am okay with 
that because that will actually stop us dead in the tracks if 
we do not get it right on the way out.
    I have also talked to Undersecretary Kristina Johnson. The 
Idaho National Laboratory reports under her leadership. And so 
she knows that I am interested in getting this project done. I 
want it done basically. It should not be that difficult to do, 
but we have to finish and get that paperwork out.
    I will personally check on exactly where the document is 
and get back to the committee. I did not realize it was in our 
general counsel right now, but I will check on that.
    Mr. Simpson. I appreciate that. And thanks for the update.
    Mr. D'Agostino. Yes, sir.
    Mr. Simpson. There is an issue about DOD use of DOE labs 
based on contracting requirements, as you know. You and I have 
talked about this before. It contained the requirement--the 
requirement that was contained in the 2010 Defense 
Authorization Bill. And I understand that there is a waiver 
through March 31st to temporarily resolves the problem, but 
that waiver will soon expire. And I do not know if there is a 
permanent solution yet. Is there?
    Mr. D'Agostino. Well, the permanent solution ultimately 
will be to get the next authorization act that comes out to 
take care of that DOD work at departmental facilities 
permanently taken care of--I had the opportunity to talk to 
some committee staff from both the House and the Senate to make 
sure that that type of language gets debated and gets voted on.
    Of course, that does not start until October 1st, if it 
makes it through.
    Mr. Simpson. So will the waiver be extended?
    Mr. D'Agostino. We are going to push hard to get that 
waiver extended. We cannot have a--I cannot guarantee that it 
will be extended, but our colleagues in the Defense Department, 
Undersecretary Ash Carter for Acquisition, Technology and 
Logistics, his staff knows that we want to get this extended.
    It came down to the wire when we got that first waiver, 
unfortunately, from a timing stand point and made us very 
uncomfortable. And we would like to move forward and get that 
done.
    Mr. Simpson. Okay.
    Mr. D'Agostino. So I will check on that as well, sir.
    Mr. Simpson. Okay. I appreciate that.
    The pension issue remains a large issue, important issue, 
across the DOE complex. I suspect that that is true with the 
NNSA, also?
    Mr. D'Agostino. Yes, sir.
    Mr. Simpson. What are we doing to--are we going to have a 
shortfall in this year? And what are we doing to address that 
on long-term means?
    Mr. D'Agostino. What we will do with pensions--I mean, part 
of the initial problem was having consistent and similar data 
so that we compare apples to apples across our contractor 
force. And we did not have that initially. And that is a 
deficiency that the chief financial officer, with the 
secretary, is working to correct, get consistent data so we 
understand where the real problem--if there is a real problem 
or if it is just a problem that is a result of, you know, this 
is how I calculate how much is in my pension pool.
    So most recently, all the chief financial officers from 
around the Department of Energy got together with the chief 
operating officers and the department's CFO to look at and 
make--we are going to be proposing some adjustments to fix and 
make sure that the department as a whole takes care of its 
problems. It may result in some reprogramming requests.
    I do know I have the data in my inbox right now. I have not 
had a chance to look at it yet. But I believe we will be okay 
with the adjustments in this fiscal year. And then what we are 
planning on instituting is kind of a departmental look at this 
problem instead of just having it site by site specific 
problems.
    What we do not want to do, though, is punish sites that 
have done a good job managing their portfolios and rewarding 
those that, for whatever reason, have not performed as well. So 
that is an element of this overall calculus.
    Mr. Simpson. Thank you.
    Mr. D'Agostino. Yes, sir.
    Mr. Simpson. Mr. Chairman, I will wait until after the 
votes for further questions.
    Mr. Davis. I often look at the past to determine where we 
are today and what the future may be. Nobody can really see the 
future, we can only predict.
    But as I look at our investments in many areas in this 
country, we have, over the last 30 years, basically ignored all 
infrastructure in this nation. We have built some of our 
nuclear fleet. As far as investing in our infrastructure, I 
think we have been very remiss. It appears the only thing we 
have done since 1980, when we owed less than a trillion 
dollars, all we have done is invested in debt, and we have done 
a pretty good job of that the last 30 years.
    But when you look at the era of the Cold War and the 
buildings that we have in many of our research facilities, 
areas where our national security is in jeopardy, in my 
opinion, or maybe not in jeopardy but at least where we should 
have made investments, we have not been doing that.
    What I like about this budget is that we start looking at 
investing in the future. I often hear a lot about Cold War 
buildings. There are buildings today that were built during the 
time of the ``Bold War,'' World War II. The boldness of our 
young men and women--and who went into battle in Europe and 
Asia.
    Many of those buildings that built the weapons and the 
research and the development going on are today being 
maintained and not being used. And as a result of that, are 
actually jeopardizing ongoing programs in many of our research 
facilities. And one of those being Y-12, for instance, in Oak 
Ridge.
    I had an opportunity to tour some of those buildings that 
have not been used for decades but are still being maintained. 
For instance, steam leaks you can hear three or four levels 
down as you go up to it. And the reason the leaks are there, to 
repair those and patch those, costs too much money. And so a 
lot of these buildings that should be torn down we are unable 
to do that.
    I look at the amount of dollars that--we said we have got 
$25 billion in environmental management. We have got a pretty 
good head there, I think, in most of these areas. But I think 
our unwillingness, past Congresses in the last 30 years, the 
willingness to increase debt without building infrastructure is 
something that, pre-1980, we would have never done in this 
nation.
    And so we talk about spending taxpayer money. I heard 
someone say a while ago we are spending taxpayer money. 
Actually, what we are doing is borrowing money and spending 
it--obligating our taxpayers in the future with no results from 
it because I have seen no infrastructure developments since 
about 1981, but I have seen our debt increase by 1100 percent.
    So I am pleased now--and I am sorry I am kind of giving a 
lecture, I guess. I am kind of pleased now to see us start at 
least directing dollars toward infrastructure. For the first 
time, we have made a commitment to build an interstate, to 
build the lakes that we have, to defend this nation.
    So I am pleased with this budget that I am looking at. As 
you envision removing some of the buildings that I am seeing 
maintained today at exorbitant cost though the EM funding, 
taking those buildings down and then making a much smaller 
footprint, as well as a safer environment for our workers that 
may be working on unenriched uranium, for instance, what vision 
do you have and can you predict the future of when we will see 
some of these old buildings torn down and that footprint will 
be replaced with safe, very efficient buildings that will no 
longer be part of the ``Bold War'' buildings or Cold War 
building but modern-day technology? When do you see that 
happening?
    Mr. D'Agostino. I see it--well, this budget's goal is to 
start making that real in fiscal year 2011 and actually, Dr. 
Ines Triay, who I work with fairly closely, Y-12, for example, 
we have this vision of taking those 150 acres of highly secure 
space and dropping it down to 15 acres with a very tight 
security fence around that. That saves us a tremendous amount 
of money in security costs and maintenance costs.
    So with Dr. Triay, what we are going to plan on doing is, 
instead of waiting to make that basic step from 150 to 15, we 
are going to draw up a temporary fence down the middle and take 
it in two chunks. What that does is it allows me to start 
reducing security costs right away instead of waiting for this 
UPF facility to be finished and completed. And it allows--it 
makes it cheaper for her to take down those old buildings 
because, what we are going to do is move the fence to the point 
that those old buildings are outside of the fence and she can 
start taking those facilities down with the recovery act 
resources and resources within her program as they are 
authorized and appropriated.
    So our goal was, let us get this moving. We have started 
already. The facility called the Highly Enriched Uranium 
Materials Facility that the committee has supported is being 
loaded now with highly enriched uranium from the west end of 
that site. We are probably halfway through a 90-day campaign. 
Is that about right?
    General Harencak. Yes, sir. That is correct.
    Mr. D'Agostino. In getting all that material from our west 
end over, that is step one. Step two is cleaning up the rest, 
moving the other HEU into that building and then building that 
security fence down the middle. And then Dr. Triay's program 
can start taking those buildings down.
    I think we will see this actually happening within the next 
few years. I can get you details--I would like to provide the 
committee a schedule on that example plus a few more across the 
enterprise.
    Mr. Davis. And I believe what the committee also needs to 
understand, we are still maintaining those buildings for 
environmental hazardous purposes in essence. Even though we 
have changed the fence, we still have a maintain and keep 
functions--not process or programs--but keep those buildings 
open to prevent maybe some type of environmental incident or 
accident that may occur there.
    I am concerned that, if we have an accident in one of those 
labs or in one of the areas such as Y-12, where we have ongoing 
critical national defense programs going on, that could shut 
down the entire process. And so it is my hope that we look into 
the future and spend the dollars based upon the critical need 
that we have. And I believe this is an area where we have been 
remiss doing that.
    I am pleased to see this budget addressing that more, but I 
do not think you have addressed it adequately. I applaud what 
you have done so far.
    Mr. D'Agostino. Okay. Thank you, sir.
    Mr. Frelinghuysen. Would the gentleman yield?
    Mr. Davis. I yield.
    Mr. Frelinghuysen. As you make the footprint smaller here, 
what happens to all of those buildings? I mean, does some of 
this stuff go to the WIP and some of it remediated on site? And 
what is the--what lies ahead? I have been down there, and they 
are doing some things. They are proud of what they are doing, 
but you have got a huge complex down there. What does it look 
like, and how are we going to pay for it?
    Mr. D'Agostino. Some of it will go to a variety of places. 
The material that we can move to WIP--and, first of all, we are 
de-inventorying the Lawrence Livermore National Laboratory of 
Category 1 and 2 quantities of special nuclear material. That 
will save on security costs when that job is done in 2012.
    Some of that material goes to WIP. Some of the material is 
going to Los Alamos. Some of it, ultimately, particularly that 
can be as MOXible material will ultimately end up being put 
through the plutonium disposition facility and, ultimately, 
turned into MOX.
    So there is a variety of places where this material is 
going. So we are taking it in bite-sized chunks. Take care of 
Livermore and de-inventorying the material. Getting the extra 
material out of the vaults at Los Alamos and moving it as 
appropriate to WIP, as appropriate or to South Carolina, taking 
care of our highly enriched uranium, the fact that it is spread 
out over those 150 acres.
    It will go to a variety of places.
    Mr. Frelinghuysen. This is the essence--a critical mass of 
project management of what you spoke and, I think, the progress 
that you have made and that, historically, the committee has 
been somewhat critical of.
    Mr. D'Agostino. Right.
    Mr. Frelinghuysen. And you are, indeed, moving ahead in 
ways that, perhaps, you have not been able to.
    Mr. D'Agostino. Right. I think what I would like to be able 
to do--I mean, when we first started down this path of having a 
much smaller but focused nuclear security enterprise, we 
identified many buildings, by name, by number, that we would be 
taking down across the enterprise. And we are working our way 
down that list. Some of these are small-dollar taking down of 
buildings. Some of these are big-dollar that can only be done 
by the environmental management program.
    Mr. Frelinghuysen. I thank the gentleman for yielding. 
Thank you, Mr. Chairman.
    Mr. Pastor. We are going to go ahead and vote. We probably 
will have three votes, don't we? We will be probably 20 
minutes.
    Mr. D'Agostino. Yes, sir.
    Mr. Pastor. I think we have coffee back here and doughnuts. 
[Laughter.]
    Mr. D'Agostino. Very kind, sir.
    Mr. Pastor. Or work on the report so you can get it to us. 
[Laughter.]
    Mr. D'Agostino. Thank you, Mr. Chairman.
    [Recess.]
    Mr. Pastor. We were scheduled to finish around 12 o'clock. 
Obviously, votes get in the way. And we have Mr. Fattah who 
joined us. Could we impose you on and maybe shoot for another 
round of questions, and then we will see where we are at?
    Mr. D'Agostino. Sure.
    Mr. Pastor. But my contract says I am now on time-and-a-
half. [Laughter.]
    I do not know whether we have it in the budget, either. 
[Laughter.]
    You know, we have other schedules, and I do not want to 
impose on that, also.
    Mr. D'Agostino. Mr. Chairman, we are here for you, sir.
    Mr. Pastor. I understand. But, you know, we also have 
scheduled that we have.
    So, Mr. Fattah.
    Mr. Fattah. Well, I think that there is some data in here, 
but I am interested in this whole issue of the critical skill 
shortages, and I have had briefings from the agency about the 
short-term and long-term horizon in terms of retirees and how 
the efforts are going to be in a position to make sure that we 
can do the important work that you have to do but have the 
capacity to do it.
    So if you would like to make a comment on the record, that 
would be helpful.
    Mr. D'Agostino. I would be glad to, Mr. Fattah. One of the 
things that I am very proud of that we need to continue to work 
on is our human resource capital programs. And we have a number 
of them that you probably are aware of. One of them is called 
the Demo Project where we are looking with Office of Personnel 
Management at providing a better way to recruit people into our 
program.
    The Demo Project has provided for pay and performance 
linked together and, instead of having the 15 general schedule 
bands, we have four or five pay bands and allow people to move 
up within that area. And what we have found is that younger 
folks particularly like the idea of being able to move up into 
an organization fairly quickly.
    Another thing we have is our Future Leaders Program. In 
fact, we have--if I could ask some of our future leaders--I 
think there might be a few in the audience here--if you can 
stand up just so--do not be shy. Okay.
    These are folks--you do not have to sit down on my command 
or anything----
    [Laughter.]
    I guess I always wanted to do that. [Laughter.]
    But these are folks, frankly that come from a variety of 
different backgrounds from across the country. We recruit a 
class of about 30 on any particular year from local 
universities in the areas and the neighborhoods where we 
operate. And they come either right out of college or graduate 
programs. Lisa is a former teacher. They bring just a wonderful 
array of diversity into our programs because it is that 
richness of coming from different directions that I think will 
be strong.
    Ultimately, these folks back here will be running these 
organizations 10 to 20 years from now. We have to do more of 
that as well.
    As you know, Mike Kane, who is my lead for management and 
administration, is very good about looking for talent in a 
variety of places for our programs, with historically black 
colleges and universities, with drawing there, with 
establishing various positions in those universities to push 
science and technology.
    Admiral Donald and I were just talking during the break. 
While you all were working, we were just chatting about the 
need to continue and the difficulty in recruiting talent in the 
program.
    And, sir, I do not know if you would want to make a comment 
about that as well.
    Admiral Donald. Absolutely.
    Mr. Pastor. Please turn your mike on.
    Admiral Donald. Is that good?
    The people side of our business is the linchpin of success. 
I mean, it really always has been getting the right people to 
do the work that we do. And we are going through the exact same 
issue that Mr. D'Agostino's nuclear weapons facilities are in 
that we have got a demographic that is--it is bimodal. You have 
got a lot of great experienced, older folks who are getting 
ready to leave to well-deserved retirement and a bunch of 
really bright young folks coming in the front end with a bit of 
a dip in the middle.
    Recruiting the best people is clearly important. A wide net 
being cast. Diversity clearly being an objective of what it is. 
It is very challenging because, particularly, when you are 
looking for minorities in the business, there is a lot of 
competition for talent in that area. And we work very hard 
right alongside everybody else to make sure that people 
understand what it is we do, why it is important, and why we 
think they would be successful at it.
    And it is an ongoing effort. We have improved in that area, 
not as good as we need to be, obviously. We can do more. As far 
as dealing with the retirement side, the people who are leaving 
there, the objective is to transfer that knowledge to the 
younger folks as efficiently and effectively as we can.
    The work that is in this budget this year, the additional 
work that we are bringing in, is a wonderful opportunity to 
transfer some of the core--reactor core manufacturing skills, 
reactor design skills, all of those to a new generation that 
will be able to do this business for us in the years to come.
    So it comes at a good time to do it. It is going to be a 
challenge because we are bringing a bunch of new folks into a 
business that is high precision. It is high consequence if we 
do not do it correctly. But I feel that we are in a good 
position to do it, and we are ready to move forward.
    Mr. Pastor. Last year, as I was being briefed, one of the 
things that I recall was that the F-35 and the bomb, as I refer 
to it, were kind of going in a time cycle, that they were 
integrated and it was very important. And if we had any 
slippage, the digital bomb, would set us back and we wouldn't 
able to put it on the F-35, but it was so important that they 
were integrated, that they were on the similar path.
    And I thought today I heard, because even though you may 
have slippage on the F-35, that it does not matter. We have got 
to continue this bomb because--and the progress on this--
because there is really no linkage, and it just has to be 
ready--what was it?--2017? I think I remember 2017.
    Now, which way is it?
    General Harencak. Well, I am sorry if I gave the impression 
that there is not a linkage. There is linkage in the F-35 and 
the bomb. Where there is not linkage----
    Mr. Pastor. In its development?
    General Harencak. Yes. In its development, yes.
    Mr. Pastor. I think there is linkage.
    General Harencak. Yes, sir. In the development because what 
we are really talking about is any large program, like an F-35, 
has many milestones that it has to reach, which one milestone 
builds on the next milestone, builds on the next one.
    Our milestone that we, in NNSA, have to deliver is that 
milestone which is 2017 for a first-production unit. Regardless 
of the number of F-35s that were planned to be in 2017 and are 
there or not, our milestone is to connect the digital B-61 to 
the weapon. That creates--that milestone then allows continued 
development in the program to proceed further down the line.
    We call that in the Air Force a block. It is actually a 
block upgrade. So what is not linked is the numbers of 
airplanes or anything else like that that, should the F-35 
numbers slide. We are--our milestone that we have to meet is--
our requirement from DOD is to do it by 2017 is to link--get 
that bomb to be able to talk to that airplane. So there is a 
linkage.
    I apologize if I made it sound like there was somewhat less 
of a linkage. What is not linked is overall numbers of the F-35 
to this effort that we are responsible for.
    Mr. Frelinghuysen. Would the gentleman yield?
    Mr. Pastor. Sure.
    Mr. Frelinghuysen. Where does this tie-in to NATO?
    General Harencak. Well----
    Mr. Frelinghuysen. They are our partners here.
    General Harencak. Exactly. And the reason the F-35, it 
deals with extended deterrents in Europe, that is the aircraft 
of choice of our NATO allies. And it also deals with retirement 
of legacy aircraft in the Air Force.
    Mr. Frelinghuysen. There is an issue of weapon 
compatibility.
    General Harencak. Exactly, sir.
    Mr. Frelinghuysen. How does that fit into the overall 
scheme of things? If the Joint Strike Fighter is delayed, how 
is this all going to be synchronized, in a way that we are 
actually going to have something? We are doing away with the F-
22 or stopping the production, and so forth----
    General Harencak. Again, we are talking, sir, about one 
milestone in this very large, complex F-35 program. The F-35 
will have planes flying in 2017. You know, we are going to be 
able to take our first production unit of the B-61 and mate it 
to get them to talk.
    So, again, that milestone, which is us getting the B-61 
ready by 2017, has not slipped for us. And we--it will because 
we are talking about a first-production unit for that. And that 
will--so assuming there is an F-35 that we could work with to 
mate in 2017, and there will be, we still need to have the B-61 
done by then.
    Mr. Frelinghuysen. If the gentleman would continue to 
yield----
    Mr. Fattah. I will tell you what, I will just give you the 
time.
    Mr. Frelinghuysen. Digital interface here. How is that 
going to come about?
    General Harencak. Well, as I said----
    Mr. Frelinghuysen. The aircraft with the bomb?
    General Harencak. Exactly, sir. You know, this is--the 
aircraft is a digital aircraft. The bomb currently as we have 
it is an analog bomb. So we have to life extend the B-61 to 
give it the electronics and the technology that did not exist 
30 years ago when the B-61 was designed to enable it to talk to 
the software of the airplane.
    Mr. Frelinghuysen. So the larger question, are you going to 
give me some time? Okay. Thank you very much. And I will be 
brief.
    Sort of getting back to what I was talking about earlier 
with Mr. D'Agostino, strategic context of what we are talking 
about here, you know, our naval nuclear fleet, an overview of 
how we are going to look versus our adversaries or, let us say, 
our competitors--China, Russia, India. How would you 
characterize where we are now, where we are going to be in the 
future, and where we are going to be relative to the 
development of what they are doing. Their navy is not all 
nuclear, a lot of it is diesel, right?
    Mr. D'Agostino. Yes, sir.
    Mr. Frelinghuysen. Diesel subs.
    Mr. D'Agostino. Yes.
    Mr. Frelinghuysen. But can you put something into a larger 
context here?
    Mr. D'Agostino. Yes, sir. I would be glad to.
    The larger context is recognizing that each leg of the 
strategic triad provides certain things. The stealthiness of 
the seat submerged leg of the triad, actually the presence of 
the bomber leg of the triad because that actually provides an 
ability for the president----
    Mr. Frelinghuysen. But this bomber, though, is not the F-
22. It has a degree of stealth, but it is not----
    Mr. D'Agostino. But it is--over time, it is something 
saying, well, we are maybe a little bit saber rattling and 
saying we are concerned about that, we will move a squadron of 
something over into a certain area. It sends a signal and 
allows things to decompress with respect to global security 
situation.
    I mean, the administration is committed with respect to the 
F-35. Our obligation is, when that first unit is ready, we have 
the first unit ready so that they can line up together.
    Mr. Frelinghuysen. How would you compare, let us say, the 
investments to the extent we know them and can talk about them 
that the Russians and Chinese are making in aircraft, nuclear 
capacity, naval capacity?
    Mr. D'Agostino. Right. I would compare them and then 
ultimately I would be happy to get into maybe a different 
setting so we can talk details.
    Mr. Frelinghuysen. In general.
    Mr. D'Agostino. But in general sense, what is happening is, 
up until this budget request, what we have been doing is just 
maintaining and trying not--not letting anything break. And 
that is, taking care of the stockpile without underground 
testing.
    What we have not been doing is investing for the future and 
providing a sustainability on that front. Other nations have 
said publicly, frankly, that they are going to move forward in 
a visible way and increase their investments and have done so.
    Details, I can provide in a classified setting. But, in 
general, we have not been keeping up. And this budget request 
the president's signal that he cares about nuclear 
nonproliferation because of the increase there and the charge 
to secure material in 4 years. But he also knows that you 
cannot reduce the size of the stockpile without maintaining the 
stockpile and maintaining it in a way that is going to have 
some longevity and sustainability because these things are not 
going away in his lifetime, as he has said. And then it is our 
job, ultimately, to make sure that they are taken care of in 
the best possible way and, particularly, to deal with the 
threats that we believe we have from a safety and security 
standpoint that we know we can address.
    Mr. Frelinghuysen. Taken care of by civilian personnel and, 
obviously----
    Mr. D'Agostino. Yes, sir. Taken care of----
    Mr. Frelinghuysen. The military component is important. I 
am more familiar--I want to thank Admiral Donald for the 
opportunity with Mr. Davis to be on the USS Annapolis who, at 
that time, had a Captain Brunner, I believe, from New Jersey, 
for that unique opportunity to really see firsthand. First of 
all, the youth of the people that are responsible for that part 
of the nuclear submarine, obviously, working side by side with 
those that do not have those military occupations.
    It really is remarkable what is done. Of course, I did 
learn, of course, that those young people are taken away by the 
private nuclear sector at three or four times the salary of 
what you guys are paying.
    Mr. D'Agostino. Yes, sir.
    Mr. Frelinghuysen. Remarkable.
    Mr. D'Agostino. Yes, sir.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Davis. I have just one brief question, and I will not 
make many comments, but the fact that we were on that 
submarine, I can assure you, I felt safer on that sub than I 
will on my mule that I ride this weekend. [Laughter.]
    Sometimes he gets a little skittish if I do not ride him 
for 2 or 3 days. The weather has been bad. And so I feel much 
safer to that sub than I will this weekend.
    I look at our installations throughout our country and, 
obviously, the ones closest to home are the ones that we visit 
most frequently. And being on that nuclear sub and realizing 
that we have 70 vessels, I think, that are fueled with the 
uranium that is processed in Oak Ridge----
    Admiral Donald. Eighty-two.
    Mr. Davis. Eighty-two. That is a large number.
    Admiral Donald. Yes, sir.
    Mr. Davis. But realizing that the fuel comes from, 
basically, that area in the eastern part of my district, if 
there were an accident in even the EM buildings that we have 
identified that need to be taken down--this would be for the 
general--if there was an accident or something that would shut 
down those operations, what impact would that have? And if it 
was--if it had to be shut down for a considerable time, how 
harmful would that be to our ability to be able to continue to 
keep our vessels in operation?
    And I know that that is a concern that I have and I hope 
maybe others may have as well.
    General Harencak. Sure. The facility, particularly, the 
facility at Y-12 is important to our business because that is--
we are a customer of them, and that is our sole source for 
fuel, the materials that we need to build the reactor cores 
that go into our vessels.
    We, obviously, manage that inventory very carefully. We 
take into consideration potentials for stoppages and try to 
build some margin into our manufacturing processes to ensure 
that we can deal with the unforeseen should it occur. However, 
if it were to be out of commission for lengthy periods of time, 
that would be a real problem for us, a significant problem for 
us.
    And we are certainly interested and a strong proponent of 
modernization of that facility. That is in the program that 
exists before you today here to ensure that we continue to be 
viable and that we do not have that risk that is out there that 
exists today in the availability of that facility.
    Mr. Davis. In particular--I am sorry.
    General Harencak. Also, besides, obviously, the damage to 
the nuclear Navy that that would cause, we are a system of 
systems. And that would cause ripple effects throughout 
everything. Being able to produce and work with uranium is key 
to nuclear detection, nuclear security, nuclear forensics, and 
absolutely everything else we do, and the ability to produce 
everything that has to be done.
    So that is why this is a single-point failure, and it is a 
67-year-old building.
    Mr. Davis. And our involvement with dismantling some of the 
Eastern European capabilities of the past would be, also, 
important, would it not be?
    General Harencak. Absolutely, sir.
    Mr. Davis. Mr. Chairman, thanks.
    Mr. Simpson. Thank you, Mr. Chairman. I just want to meet 
Lincoln's mule. [Laughter.]
    Because if you feel safer on that mule--or on the submarine 
than you had on that mule--I know when my horse breaks a leg, I 
can get off it. [Laughter.]
    I kind of compare submariners a little bit to guys who land 
to aircraft carriers. That is kind of a controlled crash. 
[Laughter.]
    Scary places.
    But, anyway, we have been talking a little bit about the 
D&D work, and I just want to say that EM is doing a great job 
in the D&D work all across the complex, I think. They have done 
a particularly good job in Idaho in reducing the footprint size 
and, as you said, reducing the fence and the security needs and 
those kinds of things. And that is why I love that these things 
are being talked about, the special fuels facility in Idaho and 
other places.
    Just this last year, Idaho received four shipments of 
sodium bonded debris from the Sandia Lab for storage and 
treatment. And movement of the material to Idaho allowed Sandia 
to close a high-security facility and reduce its security 
costs.
    And I was glad to see that you put a $5.8 million request 
into your budget to treat the Sandia material in the fiscal 
year 2011 budget. So I appreciate that.
    Admiral Donald, you have got great fans out in Idaho. You 
do a great job out there, and the people of Idaho respect what 
the Navy does out there.
    You mentioned during your testimony that, when you are 
doing the Ohio-class submarine, you are looking at a life of 
the ship core of 33 years or something. What was the length of 
the original core when the first submarines went nuclear?
    Admiral Donald. The USS Nautilus corps lasted for 2 years. 
And the work that we have done out in Idaho has allowed us to 
take a core off of a ship, we take it out to Idaho, we put it 
in our water-pit facility out there, and we examine it, and we 
learn from it. Every single one of them, we learn.
    And we take that knowledge that we have gained as a result 
of doing that, and we improve every core that we build. As I 
have mentioned, the Virginia-class core, as a result of all 
that examination and the technical work that goes on in our 
laboratories, is going to last for 33 years. The USS Los 
Angeles just completed her lifetime--her first core lasted for 
20-some odd years.
    We are shooting for 40 on the Ohio class replacement, and 
the work that we do in Idaho both at the extended core facility 
and at the advanced test reactor is going to be critical for 
that work to be successful. And I believe we will be, but there 
is a lot of work that needs to be done.
    Mr. Simpson. It is incredible that the first cores lasted 2 
years and then it had to be refueled.
    Admiral Donald. Yes, sir.
    Mr. Simpson. And now we are talking about cores, whether 
they are aircraft carriers or submarines or whatever last the 
life of the ship. You fuel it when it is commissioned, and you 
defuel it when it is decommissioned.
    And when you talk--I was out on the Harry Truman and 
talking with the individuals out there. And it used to be that, 
if they were out in the ocean and they got orders to go to the 
Mediterranean, they had to wait for a diesel fueler to catch up 
to them and give them the fuel and so forth to make it.
    Now, they carry enough fuel because they do not have--they 
have got all that extra space that they can actually fuel the 
other ships to get going.
    Admiral Donald. That is what they do.
    Mr. Simpson. Yes. It is stunning the advances that have 
been made because of the work that is done out there at the 
advanced test reactor and the core facility.
    I understand that much of the existing infrastructure that 
you talked about during your testimony is over 50 years old, 
needing to be replaced. Could you give us some details on what 
you plan on doing with the $125 million extra that is in this 
budget to address that?
    Admiral Donald. Yes, sir. The issue particularly unique to 
Idaho is the extended core facility and, specifically, the 
water pit. This is a very large swimming pool, if you will. It 
is about a thousand feet long, 128 feet wide, and about 45 feet 
deep. It was designed--much of it was designed and built 50 
years ago. And it is approaching the end of its useful life.
    It was designed as a research facility, and it is built 
that way. It is a linear facility. Well, over the years, that 
has morphed into it is a research facility, but it is also a 
production facility now to take the spent fuel out of the water 
pit and move it into dry storage so that it is ready to go, 
whether it is to a repository or whatever the end state of that 
fuel is going to be.
    We have invested heavily to put that production facility in 
place, and we have been in production since 2005. What we have 
learned over the course of that evolution is that this facility 
was never designed to do that, and it is not particularly 
efficient. And we are starting to run into maintenance problems 
and costs associated with that.
    We believe that now is the time to do the recapitalization. 
First, because it is a 50-year-old structure; second, because 
if I get it done by 2020, I can save some money on 
reconfiguring the space for different types of fuels that we 
will bring in.
    So we have done the mission-needs statement. That has been 
submitted. It has been approved. We are now in the design--in 
the preliminary concept design work. That is under way right 
now. And, ultimately, the plan is to replace that water pit 
with a modern facility that meets current standards because the 
current one does not meet current standards. It is adequate, 
but it does not meet those standards. And make a more efficient 
facility so we can better process that fuel and maintain that 
facility out there for the time that we need to, which is for a 
very long time.
    Mr. Simpson. I appreciate that.
    Admiral Donald. Yes, sir.
    Mr. Simpson. Not so much a question but a statement. As you 
know, the ARRA funding that went out and the EM work that is 
being done at the lab and cleaning up the lab, they are ahead 
of schedule and, actually, below cost, which--you know, and 
they are going to probably, in 2011, the latter part of 2011, 
face some layoffs of D&D workers that are out there.
    I understand the naval reactor facility has some D&D work 
to do. I want to work with you.
    Admiral Donald. Yes, sir.
    Mr. Simpson. As that comes up, when we have the trained 
work force there and the equipment and so forth to do that kind 
of stuff, it may be advantageous to take advantage of that work 
force instead of laying them off and then rehiring them at a 
later date to do some of the D&D work at the naval reactors. So 
I would like to work with you on that issue.
    Admiral Donald. Yes, sir.
    Mr. Simpson. One other question. As you know, we have an 
agreement with the state of Idaho to have the fuel moved out of 
Idaho by 2035.
    Admiral Donald. Yes, sir.
    Mr. Simpson. The decision by the Administration to not 
proceed with Yucca Mountain and establish a blue-ribbon 
commission, report in 2 years, decide what we are going to do 
on that--will that affect our ability to meet that agreement 
with the state of Idaho, and if so, if it does affect it, what 
will be the impact?
    Admiral Donald. Yes, sir. In the near term, I would say 
that--no effect because we are going to continue on with the 
effort that we put in place to go ahead and continue to move 
fuel out of wet storage into dry storage in a road-ready 
condition for whatever the eventualities may be. And these are 
very robust containers. We put the fuel in the containers with 
the intention that it never comes out again. It does not have 
to be repackaged.
    So we are going to press on with that, and we have a plan 
to execute to what the 2035 deadline would require. However, at 
some point in time, a decision is going to have to be made, and 
some option is going to have to be made available because, 
right now, there is no end state if Yucca Mountain is not 
available.
    The blue-ribbon commission is, I believe, their charter has 
been issued now, and they are off to go work on that. We are 
involved to the extent that we are advisers to the committee. 
And I think--I am confident we will make sure that they 
understand what our equities and what the state of Idaho's 
equities are in this and arrive at a solution that makes sense 
for everybody.
    Mr. Frelinghuysen. If the gentleman would yield.
    Mr. Simpson. Sure.
    Mr. Frelinghuysen. This is not the only legal challenge you 
are facing. It could come from Idaho, Washington State. I 
assume you are geared up here.
    Mr. D'Agostino. Absolutely. I think the key for us----
    Mr. Frelinghuysen. Besides what we are going to do with our 
domestic----
    Mr. D'Agostino. Right.
    Mr. Frelinghuysen [continuing]. Waste.
    Mr. D'Agostino. And there are connections--the blue-ribbon 
commission is not just Yucca, there are connections in the 
nuclear industry that the blue-ribbon commission is going to 
have to address. Admiral Donald and I are going to be front and 
center with respect to commitments that we have made or that 
our organizations have made.
    Mr. Frelinghuysen. You are going to be very much at the 
table as you were in terms of developing the nuclear posture 
review.
    Mr. D'Agostino. Yes, sir. Certainly, to make sure that we 
have an appropriate path established. I mean, this is not 
something that we want to take to the 11th hour. We want it 
built in up front with respect to taking care of this material.
    Mr. Frelinghuysen. I thank the gentleman for yielding.
    Mr. Simpson. Well, I appreciate that. And it is an 
important issue, and we will be discussing that with, I am 
sure, the secretary when he has his hearing there about how we 
are going to proceed with that.
    But I do want to thank all of you for the work you do. I 
think it is a great agency that does great work, and I look 
forward to working with you so solve some of these problems.
    Mr. D'Agostino. Thank you.
    Mr. Pastor. Let me--and this is for the record. As we talk 
about Yucca Mountain in last year's bill and the blue-ribbon 
committee was created, it was the intent of this subcommittee, 
and it is law now because the president signed it, that Yucca 
Mountain was not off the table. Yucca Mountain would be under 
considerations along with all the other considerations, that 
Yucca Mountain would be, also, considered. And so I just want 
to remind you that that was the intent of this subcommittee, 
and it was the intent of the Senate because they signed off on 
it.
    Could I just bring it to your attention, since you are 
going to be at the table, to remind them that Yucca Mountain is 
still on the table and needs to be considered along with all 
the other deliberations.
    Mr. D'Agostino. Yes, sir.
    Mr. Simpson. Mr. Chairman, if you would yield for a just a 
second.
    Mr. Pastor. Sure, I will yield.
    Mr. Simpson. I just read the guidelines that were given to 
the blue-ribbon commission last night, and I read them very 
carefully. And there is no mention of Yucca Mountain in there. 
So it is not off the table as far as the instruction go, but as 
far as what the commission has been told, might be a different 
story. And that is something that we need to ask about during 
the hearing with the Secretary.
    Mr. Pastor. Well, I am sure it is going to come up again, 
but since the administrator is at the table----
    [Laughter.]
    And he is before us--he is before us, I just want to remind 
him that, in the final bill that was signed by the president, 
the intent of this subcommittee and of the House and the 
Senate--was the blue-ribbon committee--commission would 
consider Yucca Mountain in its deliberation.
    So just to remind you, and you are there.
    Mr. D'Agostino. Mr. Chairman, I got the message, and I will 
definitely----
    [Laughter.]
    I will be talking to the secretary today. I actually am 
scheduled to talk to him about a number of things, and as you 
saw me write a note, I put it on my list to talk to the 
secretary about. So I will make sure that gets passed, sir.
    Mr. Fattah. Thank you. You know, when we are looking at 
these things, you know, we are looking at where the pluses are 
and where the minuses are. Now, you have already stated, given 
the 10-plus percent increase on the weapons side, moving from a 
flat line for many years.
    And on the minus side, there is a $50 million reduction in 
terms of the protective forces, particularly--you know, when 
you look at Oak Ridge, you look at some of these other issues. 
Now, this is a 6 percent or so reduction. How many actual job 
spots are being cut? And do we have a view that confirms that 
these cuts are sustainable and still get the job done that we 
need done?
    Mr. D'Agostino. Yes, sir. We believe we can make the 
reductions based on a number of reasons. We won't be conducting 
layoffs of the security force. Our approach will be--normal 
attrition and will address some of that.
    The other piece of this has to do with our ability to 
employ technology to reduce security costs. We have a couple of 
really good examples of how a small investment in technology 
has allowed us to save, you know, on the order of $1, 2, 3, and 
4 or 5 million per year depending on the technology.
    An example is a thing called an MDAR. It is a mobile 
detection and ranging system that is essentially a small 
unmanned vehicle that we deploy--and I won't say where the 
sites are because it is not pertinent for public discussion, 
but it has saved us on the order of $3 million a year in not 
having a man on security posts way out kind of in the 
perimeter.
    The other piece--you asked a question about how do we know 
that we think we can make this reduction without having an 
impact on security. We have undertaken what we call--what is 
known as a zero-based security review where we will have teams 
of people working with--hand in glove with the security 
forces--a small group from headquarters on the inspection 
side--working out in the field. We have just completed one at 
the Nevada test site, and we have conducted simulated 
exercises, and we think we can drive some significant savings 
at each of our sites.
    What we are going to do is go validate that which can 
actually happen in anticipation of some of the changes that we 
have proposed in fiscal year 2011. So it is a combination of 
using technology, of using attrition, of using a zero-based 
security review, which we did at Nevada and has yielded some 
impressive results. And we are going to take it across the 
enterprise to try to drive efficiencies in the way we do 
business.
    Thank you, sir.
    Mr. Pastor. Thank you. Mr. Wamp.
    Mr. Wamp. Well, as the ranking member of Military 
Construction and Veterans Affairs across the hall, we have had 
Secretary Shinseki there all day. And I know that Chairman 
Edwards, who also serves on this subcommittee and asked for me 
to come and represent he and I here just to make sure you 
understand that we know the importance of these matters as 
well.
    But we always flinch when a member walks in at the very end 
of the hearing because you know they are likely to ask 
something that has already been asked, which is redundancy. And 
they always come in and extend the length of the hearing. 
[Laughter.]
    I choose to do neither, but I want to thank you all for 
your service. And I just want to pick up a little on where 
Congressman Davis from Tennessee was on the need for the IFDP 
and to make the footprint smaller, the site at Y-12 more 
efficient, and make these investments while we can because the 
ongoing maintenance cost is a lot greater than going ahead and 
making the investments to modernize the facilities. And I am 
grateful for that.
    But, Mr. D'Agostino, I know that OMB clears some of these 
numbers and that you have advocated the advancement of UPF. You 
have built strong support at the DOD for the project. There is 
now consensus. I think every president, regardless of their 
party or their ideology, when they are new, they come in as 
president and find that there are certain realities that they 
have to deal with no matter what their political ideology was. 
And I am grateful that President Obama was not immune from that 
either over the last 15 months to know that certain things we 
have to maintain investments in and, certainly, the nuclear 
deterrent is one of them, and a safe and reliable stockpile and 
the need to build things like UPF.
    Just in a few weeks, maybe 2 weeks, we are going to have 
the celebration of the HEUMF in Oak Ridge, which was built 
efficiently, effectively. It is an unbelievable facility. 
Secretary Chu will be there. I do not know, will you be there?
    Mr. D'Agostino. I will be there, sir.
    Mr. Wamp. You will be there, and I will be there. And I 
look forward to that. And that was completed, big project. And 
the UPF will follow.
    But my question for you, because the CMRR in some of the 
labs, I think, took the big chunk of the increased money that 
you asked for, and OMB makes those decisions, I understand 
that. But can we look for a 2012 request for UPF in terms of 
moving forward with construction?
    Mr. D'Agostino. One of the--I will answer your questions, 
but I want to put it in a little bit of context. And I will 
maybe--we can--I am not sure exactly what we have in fiscal 
year 2012 for UPF.
    We proposed and OMB does, ultimately, make the final 
decision on what the administration is going to present to the 
president, but the funding profile that we asked for in the 
NNSA is what we received from OMB.
    It was based on the principles of project management which 
says we want to spend more time up front in designing a 
facility so we know what we are designing and have a good idea 
exactly what the cost is, the schedule, and the scope is of the 
facility before we start constructing and then find out, well, 
we did not quite finish that part of the design. Then we come 
back to you, sir, and then things look pretty ugly, basically 
on myself and my organization.
    So we are going to--for both facilities, we are going to 
approach it in a manner that allows us to do the site prep work 
and the long-lead material work up front because you can 
separate those out. But then spend all of our time before we 
proceed with defining cost, schedule, and scope and getting 90 
percent design completed. Whether it is for the CMR facility, 
or whether it is for the UPF facility, we are going to use the 
same types of principles.
    And I believe that is the responsible way of doing it. 
There is--my commitment and, you know, when the question comes 
up, well, do you build one before the other, I said, no, you 
have got to build both of them because both are incredibly 
important. They are both in two different parts of the country, 
they are not going to run into each other, they are not going 
to hurt each other. And the budget and program we have laid out 
actually commits to building both of those facilities.
    And it will extend beyond the 5-year window that we have--
you know, we submit a 5-year look ahead, and there was going to 
be some work that is going to have to continue in years 16 and 
17. Is that right, sir?
    So I will have to figure out when that first blade of dirt 
gets turned over and get back to you specifically on when that 
is. And I think that will be part of our decision to move 
forward on site preparation and long-lead material procurement 
for that facility.
    Mr. Wamp. Well, I thank you all three for your service 
because I really feel like, particularly you, Tom, you have 
risen above the divisions to build unity around this most 
important mission of our federal government to maintain this 
deterrent and to keep our facilities as competent and 
modernized as possible. Even though it has been a difficult 
task for you, you have had a very good last 15 months in a 
difficult environment given where you started from. And I hail 
that, and we really should all hail it in a bipartisan way.
    Mr. D'Agostino. Thank you, sir.
    Mr. Wamp. Thank you.
    Mr. D'Agostino. Appreciate the support.
    Mr. Pastor. And I join you in hailing it. [Laughter.]
    I join my colleagues in thanking you for your service----
    Mr. D'Agostino. I am humbled by it.
    Mr. Pastor [continuing]. And for being here this morning. 
And remember, in the opening statement, we had time for 
questions for the record. So if you could give us a response as 
quickly as possible. I look forward to seeing you in the very 
near future to talk about some of the questions we asked in 
2007 and 2008 and 2009 and see how that is coming along. 
[Laughter.]
    Mr. D'Agostino. Yes, sir.
    Mr. Pastor. And in your conversation with the secretary, to 
remind him about the blue-ribbon commission.
    Mr. D'Agostino. I will do that today.
    Mr. Pastor. And we thank you for your service. We thank you 
for your time. And that concludes the meeting. Thank you.

[GRAPHIC] [TIFF OMITTED] T1791A.047

[GRAPHIC] [TIFF OMITTED] T1791A.048

[GRAPHIC] [TIFF OMITTED] T1791A.049

[GRAPHIC] [TIFF OMITTED] T1791A.050

[GRAPHIC] [TIFF OMITTED] T1791A.051

[GRAPHIC] [TIFF OMITTED] T1791A.052

[GRAPHIC] [TIFF OMITTED] T1791A.053

[GRAPHIC] [TIFF OMITTED] T1791A.054

[GRAPHIC] [TIFF OMITTED] T1791A.055

[GRAPHIC] [TIFF OMITTED] T1791A.056

[GRAPHIC] [TIFF OMITTED] T1791A.057

[GRAPHIC] [TIFF OMITTED] T1791A.058

[GRAPHIC] [TIFF OMITTED] T1791A.059

[GRAPHIC] [TIFF OMITTED] T1791A.060

[GRAPHIC] [TIFF OMITTED] T1791A.061

[GRAPHIC] [TIFF OMITTED] T1791A.062

[GRAPHIC] [TIFF OMITTED] T1791A.063

[GRAPHIC] [TIFF OMITTED] T1791A.064

[GRAPHIC] [TIFF OMITTED] T1791A.065

[GRAPHIC] [TIFF OMITTED] T1791A.066

[GRAPHIC] [TIFF OMITTED] T1791A.067

[GRAPHIC] [TIFF OMITTED] T1791A.068

[GRAPHIC] [TIFF OMITTED] T1791A.069

[GRAPHIC] [TIFF OMITTED] T1791A.070

[GRAPHIC] [TIFF OMITTED] T1791A.071

[GRAPHIC] [TIFF OMITTED] T1791A.072

[GRAPHIC] [TIFF OMITTED] T1791A.073

[GRAPHIC] [TIFF OMITTED] T1791A.074

[GRAPHIC] [TIFF OMITTED] T1791A.075

[GRAPHIC] [TIFF OMITTED] T1791A.076

[GRAPHIC] [TIFF OMITTED] T1791A.077

[GRAPHIC] [TIFF OMITTED] T1791A.078

[GRAPHIC] [TIFF OMITTED] T1791A.079

[GRAPHIC] [TIFF OMITTED] T1791A.080

[GRAPHIC] [TIFF OMITTED] T1791A.081

[GRAPHIC] [TIFF OMITTED] T1791A.082

[GRAPHIC] [TIFF OMITTED] T1791A.083

[GRAPHIC] [TIFF OMITTED] T1791A.084

[GRAPHIC] [TIFF OMITTED] T1791A.085

[GRAPHIC] [TIFF OMITTED] T1791A.086

[GRAPHIC] [TIFF OMITTED] T1791A.087

[GRAPHIC] [TIFF OMITTED] T1791A.088

[GRAPHIC] [TIFF OMITTED] T1791A.089

[GRAPHIC] [TIFF OMITTED] T1791A.090

[GRAPHIC] [TIFF OMITTED] T1791A.091

[GRAPHIC] [TIFF OMITTED] T1791A.092

[GRAPHIC] [TIFF OMITTED] T1791A.093

[GRAPHIC] [TIFF OMITTED] T1791A.094

[GRAPHIC] [TIFF OMITTED] T1791A.095

[GRAPHIC] [TIFF OMITTED] T1791A.096

[GRAPHIC] [TIFF OMITTED] T1791A.097

[GRAPHIC] [TIFF OMITTED] T1791A.098

[GRAPHIC] [TIFF OMITTED] T1791A.099

[GRAPHIC] [TIFF OMITTED] T1791A.100

[GRAPHIC] [TIFF OMITTED] T1791A.101

[GRAPHIC] [TIFF OMITTED] T1791A.102

                                         Wednesday, March 10, 2010.

    FY2011 BUDGET FOR DEPARTMENT OF ENERGY NUCLEAR NONPROLIFERATION

                                WITNESS

STEVEN K. BLACK, CHIEF OPERATING OFFICER, OFFICE OF DEFENSE NUCLEAR 
    NONPROLIFERATION, NATIONAL NUCLEAR SECURITY ADMINISTRATION, U.S. 
    DEPARTMENT OF ENERGY
    Mr. Pastor. The hearing will come to order. Good afternoon.
    We have before us today Steven Black, Chief Operating 
Officer for the Office of Defense Nuclear Nonproliferation. He 
will be presenting the President's Fiscal Year 2011 budget 
request for the Office of Defense Nuclear Nonproliferation.
    The President committed to an aggressive nonproliferation 
agenda in his first year in office. He pledged to secure all 
vulnerable nuclear materials worldwide in 4 years, accelerate 
the reduction of Russian and U.S. nuclear weapons stockpiles 
through a new agreement and is seeking to update the agreement 
for Russia to dispose of a surplus of weapons grade plutonium. 
Fiscal year 2011 supports these commitments with a proposed 
$2.7 billion, which is $550 million above fiscal year 2010.
    Securing vulnerable nuclear material is a laudable goal, a 
goal that this Committee supports. However, the magnitude of 
the increase, 26 percent, raises concerns whether the increase 
can be effectively executed in a single year. Significant 
portions of the program depend on finalizing agreements with 
other nations, something that is notoriously difficult to 
firmly nail down in time.
    There may be justification to fund activities that are 
uncertain but overpromising on execution, risk, skepticism 
toward this request and planned future spending increases. The 
program has made significant progress in reducing carryover in 
the last several years. We will continue to expect you to meet 
your commitments to the public. We are interested in this 
hearing to hear the details of how you believe you can execute 
this funding and your defense of the choices made in the 
nonproliferation request.
    Mr. Black, your written testimony will be entered into the 
record. After the hearing, you may have some questions to be 
answered for the record, and I ask that you have the responses 
and any supporting material requested by the subcommittee to be 
delivered in final form to the subcommittee no later than 4 
weeks from today.
    I ask that if members have additional questions they would 
like to submit for the record, that they please do so to the 
subcommittee by 5 p.m. this afternoon.
    With those opening comments, I would like to yield to the 
ranking member for any opening comments that he would like to 
make. Rodney.
    Mr. Frelinghuysen. Thank you, Mr. Chairman. Mr. Black, 
welcome.
    Mr. Black. Thank you, sir.
    Mr. Frelinghuysen. As the chairman has stated, this is the 
largest programmatic increase in our bill, the nonproliferation 
portion, and obviously it shows the administration's support 
for these important programs.
    Last week we heard testimony from your colleagues who are 
responsible for maintaining our nuclear stockpile, nuclear 
navy, Mr. D'Agostino and company. I count myself among the 
strongest supporters for their work, and I know many of my 
colleagues on this subcommittee feel the same. That didn't 
spare them from some of the pointed questions regarding the 
administration's proposed increases for weapons in naval 
reactors programs.
    My constituents are increasingly concerned about the 
country's growing budget deficit and are calling for budget 
cuts, not budget increases.
    I hope you will tell us this afternoon just why your 
request is needed, not only why this request is needed, but how 
it will be spent effectively and efficiently.
    You will have an opportunity this afternoon to explain to 
us your priorities and how the expenditure of these funds 
should help our security and that of our allies. I also hope 
you will be able to explain how your request builds on the 
administration's initiatives, including the nuclear posture 
review and the national security enterprise concept.
    Mr. Black, taking into account the shift and scope in your 
accounts, approximately two-thirds of your increased budget 
request is to support the President's pledge to secure all 
vulnerable nuclear material worldwide within 4 years. While 
this is a laudable goal, it is not well defined and I am 
worried about its implementation.
    Similar programs in Russia have been successful, but there 
are concerns about how well the Russian government will sustain 
the improvements and the investments we made. I hope that you 
have incorporated the lessons we have learned through our and, 
shall we say, your career experience with Russia so we don't 
find ourselves in the same position with other countries.
    On a more positive note, I have noted that you are wrapping 
up your elimination of weapons grade plutonium production 
program this year. This is a major success story and it 
significantly improves U.S. security by closing plutonium 
producing reactors. That said, Mr. Black, this is still a 
dangerous world. We want to thank you and the people behind you 
here this afternoon for the hard work they perform each and 
every day.
    As we work through our questions, we hope you will be able 
to give us the confidence that your proposed increase is built 
upon rigorous analysis, and that it will be well spent, and I 
am sure you will give us that.
    Thank you for your time, Mr. Chairman. Thank you, Mr. 
Black.
    Mr. Pastor. Mr. Black.
    Mr. Black. Thank you very much, sir. As you said, the 
President is requesting $2.7 billion for this nonproliferation 
program, an increase of 26 percent over last year. We are, 
indeed, essentially trying to prevent a nuclear weapon from 
falling into the hands of terrorists and to stem further 
proliferation of nuclear weapons and materials technology and 
expertise required to build them.
    At the same time, I am not one to hype the threat. It is 
not easy to build a nuclear weapon, but the consequences of a 
nuclear attack would be so dire that we would be greatly 
underserving the American public if we failed to do everything 
we could as quickly as we can.
    The President has, therefore, challenged us and the 
international community to accelerate our material security 
efforts over the next 4 years. The fiscal year 2011 budget you 
have reflects the initial investment needed to meet this 
challenge. Our fundamental priority is securing nuclear 
materials where they are stored, if we can, because that is the 
most effective way to keep bomb material out of terrorist 
hands.
    These first line of defense programs are at the heart of 
the President's 4-year effort and they drive the increases 
requested for the GTRI and MPC&A programs. In fact, the largest 
portion of our budget is aimed at making sure vulnerable 
nuclear material is protected at its source, removed or 
disposed of. After that, our priority is to create multiple 
layers of defense, such as deploying radiation detection 
monitors at critical transit points so we can intercept this 
dangerous material as far from our shores as possible.
    One of my colleagues has recently been invoking the movie 
``Charlie Wilson's War'' to illustrate the importance of 
following through on our nuclear security efforts and making 
sure we get the endgame right. Our work in Russia has, indeed, 
been going on for many years, but it is finite, and it is 
drawing to a close, in part because we have largely been 
successful in helping secure Russia's vast store of nuclear 
material and weapons. There is, however, some new work scope to 
complete, and we have identified some new problem areas that 
ought to be addressed before we leave.
    It will do us little good to have spent years working to 
improve security in Russia if we bumble the endgame and fail to 
help our partners get a sustainable system of security in 
place.
    The FMD program is also key to our material security 
effort. It is a large part of the budget request this year and 
is focused on eliminating 68 tons of plutonium in the U.S. and 
Russia. Of the funds requested for FMD, fully 87 percent is for 
the U.S. part of the program, and it will use the energy value 
of dismantled warheads no longer needed for our defense to 
produce electricity for American homes.
    The Russians have agreed to a hard cost cap of $400 
million, and they will cover the full remaining cost of their 
own program. MOX construction in Savannah River has been 
underway now for over 2 years. It is on schedule and within 
budget.
    As the ranking member has noted, our ability to get the job 
done is also demonstrated by something we are not requesting, 
which is funds to shut down the last three plutonium production 
reactors in Russia. Both reactors in Seversk were shut down 
already 6 months ahead of schedule, and the last and third one 
in Zelenogorsk should be shut down later this year, and we are 
therefore not therefore requesting any funds for that program.
    Without overpromising, we do believe that we are confident 
to get this large amount of work done because we have put in 
place contracts and procedures that streamline the complicated 
processes involved in contracting overseas. We have also 
successfully decreased our personnel vacancy rate from 17 
percent last year at this time to 5 percent today.
    Finally, we have steadily reduced our end-of-year 
uncommitted balances every year for the past 5 years. In the 
last 4 years, we have come in under the departmental threshold 
of 13 percent for uncommitted carryover. In 2009, the two 
programs at the heart of the President's 4-year plan, GTRI and 
MPC&A, they have come in under 9 percent.
    This budget request will also allow us to continue to 
provide vital support to the IAEA and to the Nuclear Suppliers 
Group, and we want to continue to revitalize U.S. safeguards 
technology and the human capital base, both of which have 
suffered attrition and atrophy over the years.
    Last, we want to continue using and investing in the world 
class capabilities of the Department's national laboratory 
complex to conduct the R&D needed for the new technologies that 
will support the Nation's arms control and nonproliferation 
efforts.
    In summary, I would like to thank the committee for your 
longstanding and continued support of our efforts, which are 
newly ambitious. We are poised to play a critical role in 
preventing terrorists, rogue states, and proliferators from 
acquiring nuclear weapons or their components.
    I appreciate the opportunity to appear before you, and I 
look forward to taking your questions.
    [The statement of Mr. Black follows:]

    [GRAPHIC] [TIFF OMITTED] T1791A.103
    
    [GRAPHIC] [TIFF OMITTED] T1791A.104
    
    [GRAPHIC] [TIFF OMITTED] T1791A.105
    
    [GRAPHIC] [TIFF OMITTED] T1791A.106
    
    [GRAPHIC] [TIFF OMITTED] T1791A.107
    
    [GRAPHIC] [TIFF OMITTED] T1791A.108
    
    [GRAPHIC] [TIFF OMITTED] T1791A.109
    
    [GRAPHIC] [TIFF OMITTED] T1791A.110
    
    [GRAPHIC] [TIFF OMITTED] T1791A.111
    
    [GRAPHIC] [TIFF OMITTED] T1791A.112
    
    Mr. Pastor. Thank you very much. Mike, how many years was 
it when we were up in Russia, when we went to the submarine?
    Mr. Simpson. I want to say it was about 6 years ago, or 7.
    Mr. Pastor. We had the opportunity with, at that time 
Chairman Hobson, and at least at that time, in my opinion, it 
was that the Russians were very cooperative in terms of opening 
up their site and showing us how they were--in showing some 
security, and then we went up to the submarine base, which we 
found very interesting, with the admirals. I just hope that our 
work was successful there.
    Mr. Simpson. I hope so.
    Mr. Pastor. We had lunch with them, and it was quite a 
treat to have lunch with the Russian admirals up there.
    Mr. Frelinghuysen. I am sure it was.
    Mr. Pastor. But at that time it was--in your testimony, you 
talk about now is 6 years later, 7 years later, and it seems we 
are winding down the program. You made a comment that there are 
still some problem areas that we need to solve.
    Would you enlighten us on that, your comment there?
    Mr. Black. Yes, sir, I certainly will, Mr. Pastor, and Mr. 
Simpson. I understand that you went on that trip with 
Congressman Hobson back in 2003. And Andrew Bieniawski was 
actually running the DOE Moscow office at that time and I 
believe accompanied you on that trip, so you certainly did see 
some very interesting things.
    Mr. Simpson. I thought he looked familiar.
    Mr. Pastor. Well, he held up our end with the Russian 
admirals.
    Mr. Black. Excellent, nice job.
    Mr. Pastor. Well, you were there.
    Mr. Black. Well, over the years we have done an awful lot 
of work in Russia. Thus far we have completed security 
upgrades, 210 out of 229 nuclear material buildings throughout 
Russia, and we have completed security upgrades at 73 Ministry 
of Defense warhead sites. It is a very large scope of work and 
it represents roughly 92 percent of the entire scope of work 
that we envision for ourselves. There are 19 other buildings 
where we are continuing to do security upgrades. That is the 
work that is going on right now.
    The willingness of the Russians to be supportive has waxed 
and waned with a variety of things, who is in the Kremlin, who 
is out. The price of oil, frankly, when the price of oil goes 
up over $120 a barrel, they get very aggressive and then when 
it falls below 70 or so they become a little more compliant. So 
that is one thing that has changed a little bit over the years.
    But we believe, having worked in the Russian facilities, we 
have seen their strengths and weaknesses, we believe there are 
a few areas that need additional work. The Russians also agree 
with us on that. They have agreed to sit down with us and work 
out some additional work scope. It particularly deals with the 
insider threat.
    But to be honest, sir, we are talking about deficiencies in 
security systems in Russian facilities, and we want to be 
mindful of the sensitivities of our Russian colleagues.
    So if we wanted to go into great detail about the specifics 
of the deficiencies, I would ask if we could return and do that 
in a closed session.
    Mr. Pastor. You are almost tempting me to close the session 
now, but we won't.
    Mr. Black. Okay, sir.
    Mr. Pastor. Well, we may accept your invitation.
    Mr. Black. Please, because we have a story to tell, but the 
details of the deficiencies in the Russian security system 
really ought to be not done in an open setting.
    Mr. Pastor. I appreciate that, and we will probably take 
you up on your offer so that we can get into some greater 
details.
    Mr. Black. Yes, sir, and we are prepared to answer any 
questions there.
    Mr. Pastor. Both the ranking member and I talked about the 
increase. I guess if there is a concern it is the ability of 
the organization to execute the funding increase in 1 year. Can 
you do all this work in fiscal year 2011 without carrying 
uncosted funds into 2012 and, along with that question is, what 
management measures are you taking to ensure that this funding 
is spent effectively and efficiently since, as you know, the 
President himself has said we need to spend every dollar very 
wisely.
    Mr. Black. Yes, and we are keenly aware of the requirement 
to spend every dollar wisely. Although, over the years, as we 
all know, we have enjoyed the largesse of Congress and we thank 
you very much for increasing the resources available to us. But 
we also, as I indicated in my opening statement, do believe 
that we have done a very good job using the funds effectively 
and in a timely manner so that we don't have enormous balances 
carried over from one year to another. We have very specific 
work scope identified already for both GTRI and the MPC&A 
program, which are the bulk of the 4-year effort that you are 
talking about.
    In the Global Threat Reduction Initiative Program, we want 
to convert seven additional research reactors from the use of 
HEU to LEU. We want to remove an additional 530 kilograms of 
HEU from countries such as South Africa, Mexico, Serbia, 
Ukraine and Belarus, and we have the bulk of these agreements. 
We have seven of the 10, and you mentioned the issue of needing 
international cooperation, and that is certainly true. We 
cannot parachute into a country in the middle of the night and 
send special ops teams to secure this material. It is all 
cooperative work. And you are absolutely right that we need 
cooperation. But we have all of the agreements we need to do 
the work in the MPC&A program, and we have seven of the 10 
agreements that we need to do the GTRI work separate slated for 
fiscal year 2011.
    Of the other three, we are guardedly optimistic that we 
will get these by the end of this year. Two of those are in 
South Africa and the third is in Ukraine. We are fairly 
confident that the new President of Ukraine will be receptive 
to the work. So we essentially have the international 
agreements we need.
    As I indicated in my statement, we have staffed up quite a 
bit. We have about a 15-percent increase in Federal staffing. 
We are much closer to our ceiling than we were at this time 
last year, and we have some modifications to contracts like the 
IDIQ contract and the DICCE contract that allow us to execute 
procurement actions fairly quickly.
    So, again, without overpromising, we do believe that we can 
effectively spend the fiscal year 2011 funds that we are 
requesting of you.
    Mr. Pastor. The second question, the management measures 
you are taking, was that in the staffing, additional staffing?
    Mr. Black. Yes, sir, and the contracting. We worked very 
closely with the service center to set up some new contract 
vehicles that will allow us to make use of small businesses so 
that they can execute some of these fuel removals or do 
feasibility studies for research reactor conversions very 
quickly.
    Mr. Pastor. Thank you. Rodney.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Black, the committee directed a report in our fiscal 
year 2010 budget outlining how the defense nuclear 
nonproliferation prioritizes its investments across all the 
nonproliferation programs. Since the Committee hasn't received 
this report, can you describe how you prioritize your 
investments?
    Mr. Black. Yes, sir. This is a really very interesting 
question, so I will be happy to answer. By the way, the report 
is on its way. But I do want to try and answer the question 
here.
    Each program does have a prioritization scheme for trying 
to maximize the nonproliferation dollars within its program.
    They are slightly different. For instance, in the Global 
Threat Reduction Initiative Program, they characterize the 
attractiveness of a material, whether it is nuclear or 
radiological and then there is a formula that involves the 
amount of material and where it is located, and that helps them 
determine how they are going to allocate their funds within 
GTRI.
    MPC&A has a similar but slightly different formula, where 
they are looking at the consequence of loss if a particular 
type of material were lost to theft or diversion.
    In the R&D program, the risk calculations have to do with 
the technological risks involved. So some technologies are high 
risk; that is, they are very far away, and they may be high 
payoff but that helps them make their determinations.
    You asked specifically about how we do allocations of our 
priorities across these programs.
    Mr. Frelinghuysen. Let's just take R&D, and then R&D, let's 
say, versus overseas nonproliferation work. How do you actually 
balance there? How do you make sure that those marginal dollars 
are well spent?
    Mr. Black. Yes, sir. There is a number of criteria that we 
look at. One of them is budgetary risk. Budgetary risk refers 
to the threat posed to a program or project by the projected 
amount of money. So, for instance, a capital construction 
project that doesn't have enough funding would be considered to 
be at budgetary high risk. That is one of the criteria that we 
would look at, is there a program at high budgetary risk.
    Another criterion that we use is urgency; that is, how 
urgent is the problem. There ought to be some sort of impending 
crisis, if a program manager came to us and said I have got to 
have additional funding this year because otherwise a crisis 
will occur.
    Policy priority refers to the degree of convergence of the 
proposal that a program manager brings to us and maybe what the 
President's policy is or a secretarial commitment or a treaty 
or a legal requirement.
    Another one is an opportunity to save time or money on it. 
Sometimes we may have two proposals in front of us that are 
largely equal in terms of the nonproliferation benefit they 
provide. But one of them may give us an opportunity to 
accelerate ongoing work or take advantage of some economies of 
scale or maybe if we commit funds earlier in a project we might 
be able to save funds in the long run.
    So that is an example of an opportunity to save time or 
money that might be one of the criteria we use.
    There might be a unique opportunity, something that we 
didn't plan for, such as the denuclearization work that we did 
in Libya in 2003. That was not budgeted for in 2002 or 
requested in 2001. We used other money for that, but it was a 
unique opportunity. Nobody anticipated that the Libyans would 
suddenly come around and say, you know, we are willing to give 
up our centrifuge equipment and let you into our nuclear 
facilities and the like.
    Mr. Frelinghuysen. You had the flexibility to do that?
    Mr. Black. Yes, sir. We have the flexibility to do that. 
But the point is that we have to take advantage of unique 
opportunities that present themselves. We don't know, for 
instance, when the North Koreans may relent in the six-party 
talks and say we are ready to let you guys come back into 
Yongbyon and begin the denuclearization efforts again.
    So that is a unique opportunity. I only give it as an 
example of a unique opportunity, and it is one of the criteria 
that we use.
    Other parties may be involved in this. We may have an 
opportunity to fund a project that maybe the Canadians will 
cosponsor with us and they will contribute money, as they have, 
or the Brits. Or maybe we have an industry partner who is 
willing to commit some private sector funds.
    So all of these things get balanced as we look at how to 
spend, how we want to propose, put together our next year's 
budget.
    There isn't a single formula that we can use, where we drop 
all the numbers in at this end and an answer comes out here. It 
involves a lot of programmatic judgment, it involves some 
political judgment, it involves some expertise from the 
laboratories and technological smarts.
    But what I am trying to do is give you a list of some of 
the criteria that we will use and the report that we will send 
up, which is written and only in coordination, identifies what 
these various criteria are.
    Mr. Frelinghuysen. You would think in some cases you might 
want to signal a nuclear detection device at a high risk border 
security crossing.
    Mr. Black. Yes.
    Mr. Frelinghuysen. But you might have to balance that 
against a judgment call in some other area.
    Mr. Black. That is exactly right. We have to decide whether 
the nonproliferation benefit of putting, say, an SLD site on 
the border of Georgia or Armenia is worth not spending that 
money on export control improvement in another country.
    Mr. Frelinghuysen. So how do you actually----
    Mr. Black. Well, as I say, it is a matter of judgment. It 
is like any other political judgment, frankly. We are trying to 
assess whether--and we have to ask ourselves this question 
every time we pull together a budget. We do it through the 
programming phase of our PPBS, the planning, programming, 
budget execution system, which is a year-long effort. It starts 
with strategic planning, and we get all these ideas on the 
table. We take several months to do strategic planning, blue 
sky thinking, think about all the things that we could do. That 
is a fiscally unconstrained exercise.
    Mr. Frelinghuysen. But sometimes things are by their very 
nature a lot more expensive, you know.
    Mr. Black. Yes, and then in the second phase, the 
programming phase, that is when we have been given guidance by 
the Administrator saying these are the things I want you to 
focus on and these are the budgetary bounds beyond which you 
can't go. However much you want to do it, you can't bust this 
budget number. And then we have to fit all of our requirements 
and all of our great ideas into that budget. And then that is 
essentially how we do it. It is a very long involved corporate 
process, and a lot of people contribute to it. We have 
expertise from labs and budget experts and political experts.
    As I say, it involves a lot of judgment and sometimes we 
are balancing things that we would prefer not to balance. 
Nobody really wants to have to decide on competing programs. 
They both appear to be valuable, but we have no choice, so we 
do.
    Mr. Frelinghuysen. I have more questions, but I think Mr. 
Simpson--thank you.
    Mr. Pastor. Mr. Salazar.
    Mr. Salazar. Thank you, Mr. Chairman. Thank you for being 
here, Mr. Black.
    Mr. Black. Yes, sir.
    Mr. Salazar. For me, this is a fairly new arena.
    Could you give us a breakdown as to what the funding 
request is towards Russia and other competing interests, other 
competing countries that actually receive some of this funding.
    Mr. Black. I will give you an answer sort of off the top of 
my head, but I am going to also request your indulgence and ask 
if I can take the question back and come back.
    Mr. Pastor. Yes.
    Mr. Black. Because this involves things that are obviously 
going to be gettable. It is available information, and I am in 
danger of giving you an incorrect answer.
    Having said that, my sense is that roughly half of our 
budget is focused on Russia and the republics in the former 
Soviet Union, roughly half, or it involves materials that in 
some way are related to Russia; for instance, the FMD program. 
Half of that is Russia, half of that is the United States.
    But that is off-the-cuff, and I would prefer to take the 
question and come back with a specific answer. Because we 
collect this information on an annual basis. We give it to the 
State Department, so it is gettable, and I would rather give it 
to you exactly.
    Mr. Salazar. And so do you think that our work in Russia is 
being accomplished, is it almost completed? Are we going to be 
looking at the same requests for the next few years?
    Mr. Black. As I say, our nuclear security upgrades work in 
Russia is roughly 92 percent done. It is finite. I mean, 
reasonable people could argue about whether this facility needs 
to be done or that one ought to be included or not included, 
but the fact is there are only a certain number of facilities 
in Russia. So it is finite and it is drawing to a close. We are 
closer to 100 percent than we are to the start of the work.
    I think it is justified to put the amount of effort, the 
weight of effort into Russia and the republics of the former 
Soviet Union that we do do because that is where the vast bulk 
of the materials we are most worried about have resided. That 
is a threat that we have done a good job mitigating with our 
Russian partners over the years, and we can move on to other 
threats in Asia, in South Asia, in the Middle East, and deal 
with other issues.
    But that is how I would answer your question about the 
focus of our attention and the weight of our budgetary effort.
    Does that help, sir?
    Mr. Salazar. Thank you, sir. Thank you, Mr. Chairman.
    Mr. Pastor. All right.
    Mr. Simpson. Thank you, Mr. Chairman. I want to ask you 
some questions about MOX, but first I want to--when we were in 
Russia, one of the things that, as I said, this is 7 years ago, 
one of the issues was the cooperation that you mentioned with 
the Russians and our inability to access some sites. Are we 
doing better with the Russians? I notice you mentioned that 
when the price of oil goes up they become less cooperative and 
when it goes down--I expect that is because they get increased 
revenue from the oil and it is a substantial part of their 
overall budget that is spent in Russia that we spend there 
trying to secure this nuclear material. So I suspect when they 
have more money they are less interested in our help.
    But how is the cooperation going and our access to these 
sites that heretofore we have had limited access to?
    Mr. Black. Let me try to answer your question this way. In 
February of 2005, we signed an agreement under the previous 
administration called the Bratislava Nuclear Security 
Initiative, and it committed us to work on an accelerated basis 
to provide nuclear security upgrades to a certain number of 
sites in Russia.
    We got that work done by the end of calendar year 2008 and 
then the Russians were pleased enough with our work in that 
area that they gave us additional work scope to do, and that is 
part of the reason that we have some additional work to do in 
Russia today.
    As to how cooperative they are--so that points to the fact 
that, in my opinion, the more they work with us, the more they 
see that our hearts are pure.
    The other thing is that we have variable success with 
different Russian agencies. The Ministry of Defense has been 
very forthcoming, and we have had a great working relationship 
with the Ministry of Defense. We also have an excellent 
relationship with the Russian Customs Service, and while we are 
not talking about nuclear security upgrades when I talk about 
Customs, I do want to make the point that we work with Customs 
to do the Second Line of Defense radiation portal monitors. The 
Russian Customs Service has agreed to supply fully one-half of 
all the SLD sites that border Russia, 170 to 175 sites. There 
is a 50/50 cost share with Russia in that regard. So the point 
about the cost sharing is important because it is indicative of 
the extent to which the Russians themselves are committed to 
this work.
    In the case of Rosatom, we have a slightly different issue. 
There is a civilian side and there is a military side. Some of 
the sites are more open and some of them are less open and we 
will probably never get access to the most secret sites, the 
warhead production facilities.
    Mr. Simpson. How are we doing with the program that takes 
Russian nuclear scientists and tries to employ them in other 
fields so that they are not available to go to Iran or some 
other places that might try to recruit them?
    Mr. Black. Our scientist engagement program, the GIPP 
program, has existed for, I don't know, 10 or 12 years, 
something like that. It is going very well.
    It is not a large program, it is on the order of 15 to $20 
million. Over the years we have engaged something like 16,000 
scientists at 1,500 facilities, and it does still exist.
    We have expanded it over the years to other republics, 
Ukraine, Kazakhstan, and we have also got a small effort 
underway in Iraq to deal with Iraqi scientists. It is not a 
huge part of our effort. As I said at the outset, our priority 
is on materials security, but it is important to try and keep 
some of these scientists and engineers and technicians who have 
expertise from migrating to other parts of the world.
    Mr. Simpson. I think it is an important part of the program 
because obviously these people are trying to provide for 
themselves, their families, et cetera, and if they get offered 
opportunities in other places where we would just as soon not 
have them, we have to have some alternative, and I think this 
is an important program and that we do that.
    Mr. Black. Yes, sir, we do.
    Mr. Simpson. Let's talk about MOX for a minute. You said it 
was on schedule and in budget, and I am tempted to ask which 
schedule and which budget we are talking about. As you know, 
this committee has had concerns about the cost overruns that 
have occurred when originally it was $1.8 billion in fiscal 
year 2001 and it jumped to $4.9 billion. Has the Department 
addressed the shortcomings in the level of detail in the 
schedule and cost analysis that GAO identified?
    Mr. Black. Yes, sir. When I say it is on schedule and 
within budget, the one I was talking about was the one 
associated with the construction of the MOX fuel fabrication 
facility at Savannah River and also the waste solidification 
building at Savannah River. Those two projects are being built 
under the rules and regulations that are enshrined in DOE Order 
413, which is how we do project management, major capital 
construction efforts.
    I would only suggest that the cost overruns to which you 
refer from 2001 really have to do with the fact that we had 
unvalidated costs in the first place, and it would be, I would 
maintain, unfair to criticize us for having overrun that cost 
estimate.
    Mr. Simpson. It was not that the costs were overrun because 
contractors keep coming back in for a change order and stuff; 
it is that we put increased demands on it and we actually 
didn't, I think the original cost estimates were probably 
insufficient.
    Mr. Black. Yes, sir.
    Mr. Simpson. The same with the waste treatment facility at 
Hanford. We didn't know we had to make it more earthquake proof 
and a few things like that which added to the cost. Still there 
was, as you can understand with this committee, when we were 
originally budgeting $1.9 billion and all of a sudden it turns 
into $4.9 billion, that causes us just a little bit of 
heartburn.
    Mr. Black. Yes, sir.
    Mr. Simpson. The Government Accountability Office has 
expressed concerns regarding the oversight of the MOX project, 
particularly safety and safety controls. Department of Energy 
headquarters oversight of the project, according to the GAO, 
needs to be strengthened.
    Are you taking actions to strengthen the oversight of the 
safety and safety control projects at the MOX facility?
    Mr. Black. Yes, sir. The Chief of Defense Nuclear Safety 
has participated in an independent project review of the waste 
solidification building, and we have conducted a number of 
reviews of the facility. All of the recommendations and the 
comments resulting from those reviews have been incorporated 
and resolved.
    I would just add the MOX construction project has operated 
now for 2\1/2\ million hours without a day lost to a safety 
incident. So we are very proud of our safety record in the MOX 
program right now.
    Mr. Simpson. I want to talk about the feedstocks for just a 
minute, and it is kind of a technical question, so I want to 
read it to you so I don't get it wrong: ``Finishing the 
construction of the MOX facility at Savannah River is only the 
first of many steps in this program. Plutonium feedstocks are 
necessary to make MOX fuel and there is a level of uncertainty 
surrounding the construction and operations preparing MOX 
feedstocks. Until the pit disassembly and conversion facility 
is operating, bridge feedstock will be provided by LANL and 
SRS. Delays in the pit disassembly facility or problems with 
LANL or SRS bridge materials could create the situation where 
MOX operates below its capacities.''
    What are the key milestones in fiscal year 2011 that will 
serve as indicators first that the feedstock will be available 
when the MOX plant begins production and, second, that the PDCF 
is on schedule to produce feedstock in 2021, and what is your 
risk mitigation plan in the event LANL falls short and the PDCF 
schedule slips or both, and what studies or data are being used 
to support the evaluation of alternatives?
    Mr. Black. You are absolutely correct that we have a phased 
operation in terms of construction and we have the MOX fuel 
fabrication facility being built first, and then we need to 
begin the pit disassembly and conversion facility or the PDC 
function needs to be put somewhere. And I think you may know 
that we are exploring the possibility of combining the stand-
alone pit disassembly.
    Mr. Simpson. Which I was also going to ask you about. So if 
you want to talk about that also.
    Mr. Black. Okay. I will just say briefly that we are 
exploring the possibility of combining the missions from those 
two separate projects in the K reactor at Savannah River 
because we think, at least the preliminary indications are, we 
haven't got all the data yet, but the preliminary indications 
are we might be able to avoid some costs. And these are 
primarily construction costs, but not exclusively.
    If we can make use of an existing shell, then we don't have 
to build a new building. If we don't have to build a new 
building, then we don't have to decommission and decontaminate 
a second building a few years from now when we are done. Using 
a K reactor might also smooth out some of the transportation 
costs.
    So there are a lot of hidden costs that we might be able to 
save if we can successfully combine these two projects, and we 
have created a working group between NNSA and EM to work out 
some of that information and come to a decision in the next 12 
to 18 months. So by the end of fiscal year 2011, by the end of 
the budget year for which we are requesting funding, we hope 
that we will have a specific cost and schedule baseline for the 
new pit disassembly and conversion function, whether it is a 
standalone facility or combined facility that we can bring to 
the committee, and it would have good data. Any data that I 
gave you now would be drawn from thin air.
    As to your question about what we are doing to make sure we 
have feedstock, we do, in fact, have a small amount of 
feedstock that we are hoping to get out of the ARIES facility 
at PF-4 at Los Alamos. Ultimately that facility is supposed to 
produce about 300 kilograms of PU oxide a year. We are not 
there yet.
    And one of the things that we are going to do is make sure 
that the Los Alamos annual evaluation, the evaluation for the 
lab, that we give the lab, which results in its performance 
fee, is dependent in part on how well they produce PU oxide out 
of that facility. That is one thing.
    The other thing is we have to do work with EM to 
characterize the impurities and some of the non-pit plutonium 
that is at the Savannah River site so we can know whether it 
will be readily available for MOX, as you said, in time for the 
MOX fuel fabrication facility to come on board.
    Lastly, one of the things we have done is we have created 
an inventory of low-enriched uranium that we can use as an 
incentive to utilities so that if by chance they had contracted 
to purchase MOX fuel and we weren't able to provide it because 
of the lack of feedstock, we could at least substitute the LEU, 
and that is an important incentive to utilities to be willing 
to use the MOX fuel.
    So those are the various mitigation remedies that we have 
at hand.
    Mr. Simpson. If I could ask one more question on this, Mr. 
Chairman, the other one you just mentioned, we don't have any 
contracts to use the fuel yet, so we are producing something 
that nobody wants yet or at least hasn't signed a contract to 
get it. What is the likelihood, I understand the TVA is a 
potential customer.
    Mr. Black. Right.
    Mr. Simpson. Areva is looking at it. Is that accurate or 
whatever?
    Mr. Black. Yes, sir.
    Mr. Simpson. Duke Energy dropped out because of the 
uncertainty over whether the fuel would be available and a 
potential shutdown of reactors because of the unavailability of 
fuel and stuff.
    Mr. Black. Yes.
    Mr. Simpson. Where are we in terms of contracting, finding 
someone that actually wants the fuel?
    Mr. Black. You are absolutely correct, sir. There is no 
utility that is currently under firm contract to purchase MOX 
fuel. But we are making very good progress in our discussions 
with TVA towards a contract for MOX fuel use in up to five 
reactors. And if TVA used five reactors, they would go a long 
way towards solving this problem. They would use almost all of 
the output that the MOX fuel fabrication facility can provide.
    But we are not done with that. We are working with our 
contractor, MOX Services, to enter a contract with Areva to 
market the MOX fuel. We are in the business of running 
nonproliferation programs in other countries. We are not well 
equipped to be out there beating the pavement and trying to 
sell fuel, but Areva is and so we are looking to have Areva be 
a marketer for the MOX fuel.
    Mr. Simpson. Let me ask you, are there reactors in other 
countries that are using MOX fuel?
    Mr. Black. Yes, sir, there certainly are, France, Japan.
    Mr. Simpson. So it could be used in other countries instead 
of just utilities in the United States?
    Mr. Black. I would want to check on that. The only reason 
that it might not be possible that I can think of offhand is 
because it is derived from the weapons program and there may be 
some legal treaty impediment.
    Mr. Simpson. But part of addressing the contract concerns 
that some utilities like Duke Energy might have had is the LEU 
and making sure that they will have it. If, for some reason, 
the MOX fuel production falls below what is necessary, they 
will have an alternative?
    Mr. Black. Yes, sir, exactly.
    Mr. Simpson. Thank you.
    Mr. Pastor. Lincoln.
    Mr. Davis. Well, continuing to follow up on that since you 
brought up the question, Areva, what part of the United States 
is their plant? Is their plant in the United States, Areva's. 
Isn't it in France?
    Mr. Black. Areva is a French company.
    Mr. Davis. French and German. Do we have companies in the 
U.S. that are in the process now of being able or working on 
experiments to be able or potential industry that would be able 
to provide this that is being manufactured in the U.S.? Are you 
aware of any of those?
    Mr. Black. Well, I am aware of the fact that Westinghouse 
and General Electric and Global Nuclear Fuel are interested in 
exploring the possibility of marketing the MOX fuel themselves. 
In fact, we are going to be sitting down with Westinghouse in, 
I think it is 2 weeks, to talk about what that company would 
need to get an NRC license to sell the fuel.
    At the moment, Areva is the only company in the United 
States that has a license to sell MOX fuel. Westinghouse and GE 
do not, but we will be meeting with Westinghouse in about 2 
weeks, sir.
    Mr. Davis. If you look at all of the reactors in the U.S., 
there are about 100 that produce energy.
    Mr. Black. I believe so, sir.
    Mr. Davis. Most of those were built in 1975 to 1985. Is 
this the fuel that fuels most of those reactors or are there 
others--how many reactors would use the MOX fuel, what percent 
of those 100 basically?
    Mr. Black. I don't know the answer to that, sir. I do know 
that we are looking to expand the universe of U.S. nuclear 
reactors that could use MOX fuel by making some modifications 
in the MOX fuel fabrication facility so that the fuel could be 
used in both the pressurized water reactor and the boiling 
water reactor.
    But I would like to take that question, it is kind of 
outside my ken, but the folks in the Nuclear Energy Office may 
be able to help us answer that question.
    Mr. Davis. The interests from some of us who live in small 
rural areas, and perhaps those who live in urban as well, is we 
seem to have deindustrialized, to destroy our manufacturing 
base, and I am interested in what we can do on this committee, 
and in Science, we can pass science, technology, energy and 
math, we can place all the dollars we want to go into research 
and development, but if we don't actually produce that here in 
this country or manufacture it here then we are going to 
destroy our economy and our economic opportunities. The reason 
I am asking the question, I want to see if we can't start 
looking at America for a change and start doing for ourselves 
what we have allowed someone else or some corporate structure 
to go and do deals that basically take the industry, the 
manufacturing jobs away from the workers in the district that I 
represent.
    In the Global Threat Reduction Initiative this committee 
has initiated and approved significant new funding to support 
the goals and objectives of GTRI. NNSA has competitively 
awarded small business contracts to support the Global Threat 
Reduction Initiative. Full utilization, in my opinion, of the 
small contracts will create new jobs and opportunities, which 
is clearly important in this economy and is the focus of this 
Congress.
    We are committed to making sure that commitments made by 
GTRI or programs offered to the small business contractors are 
honored. To date, the program has not been fully utilized with 
those contracts.
    As we consider funding for fiscal year 2011, what is your 
plan or the Department's plan, and what assurance can you give 
us that your office will fully utilize those small contracts in 
the fiscal year 2010 and for the balance of contract period of 
performance? I understand now that GTRI has award only 5.7 
million even though there is the possibility of reaching the 
level of up to $100 million for the small business contractors 
who actually bid to do certain types of work and certain types 
of performances. That seems to me that that is a small 
percentage.
    Someone is doing that work. Small contractors in the 
district I represent hire folks that will be working and paying 
for homes and buying automobiles and buying food for their 
children and clothing. I am concerned that we are not looking 
at that avenue as a source of production for the basic needs of 
our country.
    Mr. Black. Yes, sir. Well, I would like very much to 
reassure you on that point. We are very happy with the IDIQ 
contract, and we have made very good use of it. I can't explain 
the 5.7 million number that you have just quoted to me because 
my data indicates that we have contracted 20 million dollars 
worth of tasks under the IDIQ contract so far, and we have made 
good use of several of the companies that are among the three.
    Mr. Davis. Basically three, aren't there, that are 
involved?
    Mr. Black. Yes, sir. We have held some coordination and 
planning meetings with representatives of all of those 
contractor teams as recently as this past month, and the whole 
purpose was to discuss our needs for the rest of this year and 
2011 and to talk about some of the task orders that we will be 
providing to IDIQ contractors.
    Some of the shipments we have got coming up that are 
mentioned specifically in the budget request are some of the 
work from South Africa, which is a very large project, and for 
Mexico, and those would use the IDIQ vehicle.
    Yes, sir, we are committed to that vehicle, we like it very 
much, and I think you will be pleased to see the contract value 
go up as the years go by.
    Mr. Davis. We have one of the small contractors in the area 
I represent. They are going to be excited to hear this good 
news.
    Mr. Black. Yes, sir.
    Mr. Davis. I thank you and I yield back, Mr. Chairman.
    Mr. Pastor. Thank you. Marion.
    Mr. Berry. Thank you, Mr. Chairman, and thank you for being 
with us today, Mr. Black.
    Mr. Black. Yes, sir.
    Mr. Berry. The fiscal year 2011 request includes $100 
million as the first installment of an agreement with the 
Russians to dispose of 34 metric tons of surplus weapons grade 
plutonium. I understand that the agreement is not in place and 
that the last time we went down this road with the Russians, 
the Congress provided over $200 million and then the Russians 
did not follow through and we had to rescind those funds.
    Is this time expected to be different?
    Mr. Black. Yes, sir. I certainly hope it will be different, 
and I have some confidence that it will be.
    The nature of the agreement--and we do have an agreement 
with Russians by the way. We have a team in Moscow this very 
week working on that. It has been initialed by both the U.S. 
and the Russian sides, we have conformed the language. The only 
thing we have to do is set up a signing ceremony, and we are 
hopeful that that will be done before the big nuclear security 
summit the President has announced for the middle of April. So 
that is number one.
    That protocol, that agreement, commits the Russians to 
pursue their own plutonium disposition program with no more 
than $400 million of U.S. money. This makes it very different 
from the agreement we had before. The contribution that the 
U.S. would make would be capped, it will be doled out according 
to very specific performance milestones, the last 100 million 
dollars over 30 years of plutonium disposition. It is a very 
different situation this time than we had in the early 2000s, 
and I am hopeful and confident that the Congress will not feel 
the need to rescind the funds that we are requesting as a down 
payment this time.
    Mr. Berry. Are they going to dispose of it or are we going 
to deal with it, bring it over here and deal with it.
    Mr. Black. They will dispose of their own material in BN-
600 and BN-800 reactors, yes, sir, in Russia.
    Mr. Berry. Thank you. I yield back, Mr. Chairman.
    Mr. Pastor. Thank you.
    On some of these trips that we have been on with various 
committees, I think the last one was with Homeland Security, we 
visited some megaports. And at the time I think of my last 
visit there were still some megaports that we had not reached 
agreements with. As defined, megaports, we had Rotterdam and 
other places that we were working on.
    Have we now, to date, signed agreements with all the 
megaports, and do we have the equipment at those ports?
    Mr. Black. Our scope of work for the megaports program is 
100 ports, and I believe we have 30 or so operational. Eleven 
more will go operational this year and four more for 2011. So 
it would be up to about 41, 45 or so by the end of 2011.
    Mr. Pastor. Let me ask the question this way. You may have 
the information, you may not. What percentage of containers 
that are coming to the United States will we cover with the 
ones that we have under agreement or will have under agreement 
this year, 50 percent of the containers, 10 percent of the 
containers?
    Mr. Black. I don't know the answer to that. Let me find 
out. I think your question is about the distribution of the 
percentage?
    Mr. Pastor. Well, more or less. If now with the additional 
14 that you will have agreement with, is that we now have, if 
we are inspecting 90 percent of the containers coming to the 
United States, and that means that the remainder of the 100 are 
smaller ports.
    Mr. Black. Right.
    Mr. Pastor. And so then you begin to wonder how important 
is it today, because some of that equipment is very expensive.
    Mr. Black. Yes, sir.
    Mr. Pastor. And as I remember, we were supplying most of 
the equipment. And one of the issues was going to be, at least 
with some of the ports, that we fronted the money with the 
expectation that we were going to get some kind of 
reimbursement and also that any new upgrades would be paid for 
by the country utilizing the equipment. I remember a 
conversation like that, and I just wondered where we were at.
    But one of the issues that is coming up very quickly, we 
passed a law, what, about a year ago, 2 years ago, where it 
said that 100 percent of the containers had to be inspected, 
and I find it very challenging to meet that. And it is going to 
cause some major problems in some of the megaports, because 
when we visited, let's say Singapore for an example, they said 
with the 100 percent requirement of having all the containers 
inspected, the cost would go up and that would cause shipping 
companies to go to Shanghai rather than Singapore. And they 
were skeptical of how many containers would be expected in 
Shanghai as compared in Singapore.
    Mr. Black. Yes, sir.
    Mr. Pastor. And so have you kept track of that kind of 
information, of how we are getting to the goal of 100 percent 
of containers being inspected?
    Mr. Black. I am sorry, sir. We work very closely with the 
Department of Homeland Security to coordinate our work in 
megaports overseas with the Department of Homeland Security's 
Container Security Initiative and Secure Freight Initiative.
    I can't really speak to the 100 percent goal. I just know 
that we are trying to put radiation detection monitors in as 
many ports overseas as we can up to the 100 that is our work 
scope. That only represents about one-seventh of the total 
number of ports that handle sea containers that come to the 
United States as it is. But I would like very much to take your 
question and maybe come back with an answer for you about the 
percentage of sea container traffic covered by those 100 ports.
    Mr. Pastor. Well, it would be interesting because obviously 
in cooperation with Homeland Security we are going to have to 
become realistic whether or not this 100 percent inspection of 
containers is doable. If we insist on it, what are the 
consequences, especially with some of these ports that right 
now have many containers going through them and coming to the 
United States. And so it is an issue, it is a law that we 
passed here, so it would be interesting to see what debate that 
is going to lead to.
    I know you equip the ports, but I was wondering if you had 
any idea to what percentage of the containers were actually 
being inspected by the equipment.
    Mr. Black. My colleague indicates that 50 percent of total 
global sea container traffic is covered by those 100 ports, and 
that represents 83 percent of U.S. bound sea containers.
    Mr. Pastor. So it is about 80?
    Mr. Black. It is a sizeable, a nice sizeable percent.
    Mr. Pastor. Okay. Rodney.
    Mr. Frelinghuysen. Thank you, very much. The Cooperative 
Threat Reduction authorization expires in 2012. What does it 
cover now and would you explain to the committee what impact 
its expiration, will have on your work in Russia? It not only 
affects Russia, but it affects what you might characterize 
today as, shall we say, newly less independent states.
    Mr. Black. Right. Well, sir, I have to confess I felt 
fairly well prepared for almost any question, but that one 
stumps me.
    Mr. Frelinghuysen. I wasn't looking to----
    Mr. Black. I didn't take it that way, but I would like to 
get the answer and come back to you.
    Mr. Frelinghuysen. The basic question is if it isn't 
reauthorized do we have some discussions under way as to what 
might follow?
    Mr. Black. We are working with the Department of Defense on 
a possible extension of the CTR agreement. The CTR agreement is 
important because it was the original authorization for our 
MPC&A program. But beyond this I really would feel better 
coming back to you with a fuller and an explanation that I know 
is accurate about the impact of CTR's extension or nonextension 
on our work.
    Mr. Frelinghuysen. Okay. I don't want to be Russian-centric 
here. When we are out of Russia in 2013, what specific roles 
and responsibilities will the Russians take over that we are 
supporting and paying for today? I know you have talked about 
some of it.
    Mr. Black. Right.
    Mr. Frelinghuysen. It is the whole issue of how we sustain 
what we have been investing in here.
    Mr. Black. Yes, sir. We talked last year about the 
continuing need to remain in Russia for a little longer, and I 
indicated at the outset that we have identified some problems. 
The Russians have identified, have acknowledged some problems. 
And we are going to come back and talk in closed hearing about 
what those problems are. But the sorts of things that we are 
talking about are developing regulations and procedures, on 
producing spare parts, on training security operators, on 
maintaining equipment, on doing life-cycle planning for 
retrofits and the replacement of equipment and the like. These 
are the sorts of things that are involved in sustaining this 
investment that we have already made, and those are the sorts 
of things that we need to work on.
    So those are the types of things the Russians will----
    Mr. Frelinghuysen. You wouldn't want to characterize your 
confidence level?
    Mr. Black. About their ability to----
    Mr. Frelinghuysen. Yes.
    Mr. Black. My confidence level is itself variable. It is 
better for Ministry of Defense sites than for Rosatom sites.
    Mr. Frelinghuysen. What about some of the other countries, 
the other republics?
    I noted your comment about the Ukraine. Of course, if the 
new President of the Ukraine is now back in the Russian solar 
system, one would assume he would probably be pretty close to 
what the Russians would be doing in terms of compliance.
    Mr. Black. Perhaps, yes. But it is a fairly small number of 
facilities. It is on the order of 12 to 15 facilities in all of 
those other republics.
    Mr. Frelinghuysen. But any facility of that nature has 
fissile material, which even the smallest amount in the wrong 
hands would be extremely worrisome.
    Mr. Black. Yes, sir. That is part of the reason that our 
Global Threat Reduction Initiative is interested in removing 
that material completely from some of those facilities and 
returning it to Russia and putting it in some of these central 
storage facilities where we know the security is good.
    Mr. Frelinghuysen. Could you make a brief comment on the 
human capital base? You talked about what you are doing 
relative to the human capital base, and I assume that means we 
need to work on it, we need to enhance it.
    Mr. Black. Yes. As you know from the testimony my boss, the 
Administrator, gave last week, the entire national security 
enterprise has suffered over the years from neglect, from 
insufficient funding, and that is both financial investment in 
the facilities and equipment and it is also the fact that young 
people don't want to go into radiation sciences and they don't 
want to go work at the national laboratories.
    So one of the things that we have undertaken back in 2008 
was something called the Next Generation Safeguards Initiative, 
which is designed to encourage a revitalization of the 
technologies and facilities, and also encourage young people to 
go into the program. So, for instance, this past year we 
sponsored 100 NGSI interns at several of our labs and 
universities and encouraged them to go into the national lab 
system.
    Mr. Frelinghuysen. How much money was assigned to that?
    Mr. Black. I would have to get that for you.
    Mr. Frelinghuysen. I am picking up on Congressman Simpson. 
I remember my trip to Russia was many years prior to his. But 
we were looking after all of those nuclear scientists and all 
of those closed cities, and who knows how much money we spent. 
But any ways, these days we need to invest in this human 
capital base and incentivise young people to be in this line of 
very interesting and challenging work.
    Mr. Black. Yes, sir. Exactly.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Ryan. Thank you, Mr. Chairman. I want to keep on that 
line or at least that topic and talk a little bit about 
detection technologies. If you could talk a little bit about 
that portion of the budget and how that money is being spent 
and what you see as possible breakthrough technologies, if 
there are any, and are we doing enough, and then also maybe the 
status of the integrated university program.
    And I will let you answer a portion of those or all of 
those.
    Mr. Black. I will take a whack at that.
    We have the largest research and development program in the 
government that is focused on nonproliferation and arms control 
work. We are very proud of it. Roughly two-thirds of it is on 
proliferation detection efforts. Some of it is focused on 
detecting special nuclear materials production processes, what 
are the signatures that you would get if you were looking at 
the production of plutonium or highly enriched uranium. Some of 
it is focused on detecting the movement of special nuclear 
materials so that we could improve some of our radiation 
detection monitors in our programs. Some of it is focused on 
enabling technologies, such as simulations and modeling and 
algorithms or better readouts or innovative cooling systems 
that would allow something to be portable. Some of these 
technologies are focused on making the equipment usable by 
people who don't have an education or somebody that is not 
technical or that can be used in a harsh environment, such as a 
glove box or a hot cell or that could be carried into a remote 
region and operate for a long time without power being plugged 
in, for instance.
    So there are a lot of enabling technologies that help 
assist the development of the technologies we need for the 
proliferation mission.
    Another portion, the other third of our R&D program, is 
focused on nuclear detonation detection. So two-thirds are 
proliferation detection. That is the part I just told you 
about. The other third is detonation detection. And there we 
are talking about the design and the production of the 
components of the KOUN-2 space satellites for detecting nuclear 
detonations on the surface of the Earth or in the atmosphere. 
There is a portion of that work that is also focused on seismic 
and radionuclide detection and analysis.
    So that is our R&D program. That program is coordinated 
with other parts of the government, DOD, the IC, the Department 
of Homeland Security, and the like, so that we are investing in 
research that is complementary and doesn't overlap, and it is 
also focused on providing better tools for some of our own in-
house uses.
    As I said earlier, I referred to radiation detection 
monitors. Some of the improvements in the R&D program may 
result in better SLD equipment or better safeguards equipment. 
So that is our R&D program. We are very proud of it.
    The Integrated University Program I think is in its second 
year, and it is about a $15 million program, if I remember 
right. $10 million of it is allocated to universities for 
mission-related work, and another $5 million is allocated to 
universities for what is called non-mission-related work so 
that they can explore things that are not quite so tied to 
existing requirements and a little more blue sky-type of work. 
It is very successful.
    Mr. Ryan. How many universities are engaged in the program?
    Mr. Black. Let me check here. I have the information 
somewhere, but I can't find it quickly enough without being too 
disruptive.
    But we have the information and I would prefer to take the 
question and send you a correct and complete answer.
    Mr. Ryan. That would be terrific.
    Thank you, Mr. Chairman.
    Mr. Simpson. I appreciate your opening statement when you 
acknowledge the work that our national labs do in working with 
you on some of the work. We have got some great assets out 
there in our national labs, and I think we ought to be using 
them as much as possible in coordinating all of this work. So I 
appreciate your recognition of that.
    Let me ask about another subject, Moly-99. The Canadian 
reactor is going to be shut down or has faced some shutdowns. 
As I understand it, the Canadian Government wants to shut it 
down. It is the only source of Moly-99. What are we doing to 
expand that source, and have we looked at nonnuclear or 
nonreactor production of Moly-99?
    I know at Idaho State University, the accelerator center. 
They are working on that exact thing, that they can produce 
Moly-99 without a reactor.
    Where are we on all of this?
    Mr. Black. We are keenly aware of this problem of Moly-99 
availability, which I know you know is an important medical 
isotope for all kinds of diagnostic and therapeutic purposes. 
And as you said, the NRU reactor in Canada and the high flux 
reactor in the Netherlands, which are major suppliers--there is 
also one in South Africa--that provide the Moly-99 used by the 
entire world. Our interest in it is not--yes, we are great 
humanitarians here, but we are not in this because we are 
trying to provide medical isotopes. We are in this because 
those reactors produce Moly-99 by virtue of their use of highly 
enriched uranium, and we are trying to eliminate the use of HEU 
either in the reactor that produces the isotopes or that use 
HEU for the targets that create the Moly-99. That is our 
interest. We are basically trying to eliminate the HEU economy.
    So what we have is we have some technology development 
projects under way. We have given two cooperative agreements 
with two companies. One is Babcock and Wilcox for a solution 
reactor technology that would seek a way to produce Moly-99 
without using HEU, and another one is to General Electric for a 
different technology called neutron capture. There are a couple 
of different promising technologies for which we haven't 
awarded cooperative agreements yet. But that is the extent of 
our interest in this.
    If we can get an LEU-based Moly-99 production capability 
established, especially a domestic capability of the sort that 
Mr. Davis was talking about earlier, we would be much better 
off in this country. We would have the available medical 
isotope we need and we would have eliminated the HEU commerce 
that you have described.
    Mr. Simpson. There may well be a technology that is 
available that doesn't require any reactor to create it, and 
that is acceleration. And they have been working on this and I 
believe they are quite a ways along. We have been doing some of 
those bad, bad earmarks with the accelerator center at ISU 
working on this, and it might not be necessary to have a 
reactor at all to do it.
    So it would be something that I would hope we would all 
look at because it might make sense.
    Mr. Black. Yes, sir. Absolutely.
    Mr. Simpson. I appreciate that. Thank you.
    Mr. Pastor. Mr. Berry.
    Mr. Berry. I have no further questions.
    Mr. Pastor. All right.
    In 2010, we were optimistic and I think we put some monies 
in there for North Korea. Did we spend any of those monies? And 
if we did, what did we do?
    Mr. Black. Yes. Well, we did spend some of that money 
before we were kicked out of the country. As you know, we were 
there for about 18 months trying to denuclearize some of the 
facilities at the Yongbyon plant, and we had some success. For 
instance, you know there is a very common picture of the 
cooling tower at the research reactor being exploded and 
dropped, and it is sort of like the icon of our work there. But 
we did not request funding for DPRK work. In fact, if you look 
at the fiscal year 2011 budget you will see a reduction in the 
NA-24 program, the Nonproliferation International Security 
Program, because we don't think it is very likely that we are 
going to need additional money to do North Korea work in 2011.
    Now, we do have an ongoing capability, because some of the 
things we need in order to do denuclearization work in North 
Korea, we have to produce these things or purchase them in 
advance, glove boxes and the like. So we have a small effort 
underway. But we have reduced our budget request in fiscal year 
2011 precisely because we don't see a need for North Korea work 
in the near future.
    Mr. Pastor. What is the status of the negotiations? I know 
we go back and forth and you probably keep up with that better 
than I do. What is the status, if anything?
    Mr. Black. Well, we meet with the six-party talks every, I 
don't know, it seems like every 6 weeks or so and I hate to 
sound like a cynic but I am afraid I will, and probably for the 
record sometimes every 6 or 8 weeks it seems like I have read 
these headlines before.
    I would like to take the question if you don't mind, 
though, and come back with an answer for you if it is not 
outdated by the time it comes up here.
    Mr. Frelinghuysen. Mr. Black, you mentioned North Korea for 
the committee. Can you talk about threats, future threats, 
taking a look at North Korea, taking a look at Iran? I know 
there are some things we can't do in an open hearing. Could you 
talk briefly about North Korea?
    And you may have seen yesterday in the New York Times the 
article by Bill Broad, ``Enriching Uranium Only Gets Easier.'' 
I want to ask some questions relative to that article.
    Mr. Black. Okay. Well, we have a budget line called 
emerging threats. I think it is in our GTRI program and that 
happens to be where some of the North Korea funding is located. 
So you might reasonably suppose that we imagine emerging 
threats to be--that North Korea is one of them.
    Certainly that is a recurring problem and the North Koreans 
are a wild card. So it is certainly a prominent point of 
concern for us. So is Iran.
    But when I think about emerging threats in general, I think 
about the problems that we are likely to face as we expand 
nuclear power around the world, if we have a renaissance of 
nuclear power. We do believe that nuclear energy is an 
important part of the future's energy mix. It will help us deal 
with controlling greenhouse gas emissions and will provide a 
substantial part of the electric baseload that the world is 
going to need.
    But there is going to be a serious strain on the IAEA's 
ability to manage that burden because the number of facilities 
under nuclear safeguards is already expanding, the amount of 
material is expanding, and the safeguard system is already 
overburdened and we need a safeguard's system at the 
International Atomic Energy Agency that is capable of verifying 
compliance----
    Mr. Frelinghuysen. How well do you think they have done 
already?
    Mr. Black. Well, I think they have done very well actually, 
but they are over burdened. They spend a lot of time verifying 
declarations of countries that have submitted information to 
the IAEA and the world, and they are not able to spend quite as 
much time trying to uncover undeclared activities, and that is 
where I think the biggest threat is in the future. That is the 
most serious emergent threat, undeclared activities associated 
with nuclear power in other countries.
    Mr. Frelinghuysen. There is speculation that a lot of 
countries are working on this, not only the new nuclear power 
plants but sort of working the nuclear bomb equation.
    Mr. Black. Well, our task is precisely to find a way to let 
nuclear power expand without also expanding the threat of 
proliferation of nuclear weapons. We just have to find a way to 
make the IAEA safeguard's system capable of verifying 
compliance of declarations and detecting undeclared activities.
    It has done a very good job in Iran. It has taken a long 
time, yes, and we have had a prominent role in helping the IAEA 
uncover some of those violations in Iran.
    Mr. Frelinghuysen. The article I referred to--and I am sure 
you are familiar with it--sometimes we are dismissive of what 
Iran is--their capabilities. Sometimes we are dismissive of 
what we think to be the capabilities of the North Koreans, but 
certainly there is some, I think, substantial speculation that 
the Iranians are working in a variety of sites. Some we know 
about and some we speculate, but we will find out about.
    What is your take?
    Mr. Black. Sir, I spent 21 years in Air Force intelligence, 
and I had work to do with threat assessments over the years, 
and I learned early in my military career and all the way up to 
the end and even now, that it is very dangerous to be 
dismissive of other countries for whatever reason. We don't 
want to dismiss their capabilities because they do things 
differently or we think something about their religion or their 
race. It is very, very dangerous, and so we don't want to be 
dismissive of anybody's capabilities.
    We take that very seriously ourselves, and I think the 
Nation has done a pretty good job at that.
    Mr. Broad referred to the problem of enrichment as a 
particular source of threat. I think that had to do with the 
fact that we used to be mostly concerned about reprocessing and 
the fact that countries would make use of plutonium that they 
reprocessed.
    But over the years what has happened, and this is many 
years, a couple of decades, is we have found centrifuge 
technology increasingly prominent. Centrifuges are more 
capable. A.Q. Khan created a black network of illicit 
trafficking involving a lot of countries----
    Mr. Frelinghuysen. We still don't know the full extent that 
he did.
    Mr. Black. No, sir. We don't know the full extent because 
we haven't had access to him. So we don't know all of the ins 
and outs of his network.
    But the point here is enrichment technology is something we 
have to get a handle on, not just reprocessing. That is part of 
the reason that this administration and the previous 
administration had a focus on what is called E&R technologies, 
enrichment and reprocessing technologies. It is a serious 
threat, and we are aware of it, and we are doing the best we 
can to improve export controls. We are doing the best we can 
with the Nuclear Suppliers Group to try and restrict the trade 
and the components of centrifuges and the like.
    Mr. Frelinghuysen. I think we are highly respectful of, 
obviously, your career in this area, but once they have 
developed it then we are in real trouble.
    Mr. Black. Yes, sir. Absolutely.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Ryan. I don't know if you touched upon Iraq at all and 
what your role still is there, if any. If you could give us a 
quick minute or two on that.
    Mr. Black. It will be quick because it is not a very large 
role in Iraq. We have engaged in a couple of operations in Iraq 
to recover material soon after the initial invasion of Iraq. We 
went into the Tuwaitha complex and removed a large amount of 
material and then later on, a couple of years later, we did a 
second operation to remove yellowcake and some radiological 
sources.
    That was really the extent of our work in Iraq. In addition 
to that, though, I mentioned--perhaps you weren't in yet, sir--
we have engaged about 200 scientists and technicians in Iraq on 
some small-scale R&D projects to make sure that they don't take 
their expertise to other countries and develop weapons of mass 
destruction there. But it is fairly small.
    Mr. Pastor. Thank you very much, Mr. Black.
    And this will conclude the hearing.

    [GRAPHIC] [TIFF OMITTED] T1791A.113
    
    [GRAPHIC] [TIFF OMITTED] T1791A.114
    
    [GRAPHIC] [TIFF OMITTED] T1791A.115
    
    [GRAPHIC] [TIFF OMITTED] T1791A.116
    
    [GRAPHIC] [TIFF OMITTED] T1791A.117
    
    [GRAPHIC] [TIFF OMITTED] T1791A.118
    
    [GRAPHIC] [TIFF OMITTED] T1791A.119
    
    [GRAPHIC] [TIFF OMITTED] T1791A.120
    
    [GRAPHIC] [TIFF OMITTED] T1791A.121
    
    [GRAPHIC] [TIFF OMITTED] T1791A.122
    
    [GRAPHIC] [TIFF OMITTED] T1791A.123
    
    [GRAPHIC] [TIFF OMITTED] T1791A.124
    
    [GRAPHIC] [TIFF OMITTED] T1791A.125
    
    [GRAPHIC] [TIFF OMITTED] T1791A.126
    
    [GRAPHIC] [TIFF OMITTED] T1791A.127
    
    [GRAPHIC] [TIFF OMITTED] T1791A.128
    
    [GRAPHIC] [TIFF OMITTED] T1791A.129
    
    [GRAPHIC] [TIFF OMITTED] T1791A.130
    
    [GRAPHIC] [TIFF OMITTED] T1791A.131
    
    [GRAPHIC] [TIFF OMITTED] T1791A.132
    
    [GRAPHIC] [TIFF OMITTED] T1791A.133
    
    [GRAPHIC] [TIFF OMITTED] T1791A.134
    
    [GRAPHIC] [TIFF OMITTED] T1791A.135
    
    [GRAPHIC] [TIFF OMITTED] T1791A.136
    
    [GRAPHIC] [TIFF OMITTED] T1791A.137
    
    [GRAPHIC] [TIFF OMITTED] T1791A.138
    
    [GRAPHIC] [TIFF OMITTED] T1791A.139
    
    [GRAPHIC] [TIFF OMITTED] T1791A.140
    
    [GRAPHIC] [TIFF OMITTED] T1791A.141
    
    [GRAPHIC] [TIFF OMITTED] T1791A.142
    
    [GRAPHIC] [TIFF OMITTED] T1791A.143
    
    [GRAPHIC] [TIFF OMITTED] T1791A.144
    
    [GRAPHIC] [TIFF OMITTED] T1791A.145
    
    [GRAPHIC] [TIFF OMITTED] T1791A.146
    
    [GRAPHIC] [TIFF OMITTED] T1791A.147
    
    [GRAPHIC] [TIFF OMITTED] T1791A.148
    
    [GRAPHIC] [TIFF OMITTED] T1791A.149
    
    [GRAPHIC] [TIFF OMITTED] T1791A.150
    
    [GRAPHIC] [TIFF OMITTED] T1791A.151
    
    [GRAPHIC] [TIFF OMITTED] T1791A.152
    
    [GRAPHIC] [TIFF OMITTED] T1791A.153
    
    [GRAPHIC] [TIFF OMITTED] T1791A.154
    
    [GRAPHIC] [TIFF OMITTED] T1791A.155
    
    [GRAPHIC] [TIFF OMITTED] T1791A.156
    
    [GRAPHIC] [TIFF OMITTED] T1791A.157
    
    [GRAPHIC] [TIFF OMITTED] T1791A.158
    
    [GRAPHIC] [TIFF OMITTED] T1791A.159
    
    [GRAPHIC] [TIFF OMITTED] T1791A.160
    
    [GRAPHIC] [TIFF OMITTED] T1791A.161
    
    [GRAPHIC] [TIFF OMITTED] T1791A.162
    
    [GRAPHIC] [TIFF OMITTED] T1791A.163
    
    [GRAPHIC] [TIFF OMITTED] T1791A.164
    
    [GRAPHIC] [TIFF OMITTED] T1791A.165
    
    [GRAPHIC] [TIFF OMITTED] T1791A.166
    
    [GRAPHIC] [TIFF OMITTED] T1791A.167
    
    [GRAPHIC] [TIFF OMITTED] T1791A.168
    
    [GRAPHIC] [TIFF OMITTED] T1791A.169
    
    [GRAPHIC] [TIFF OMITTED] T1791A.170
    
    [GRAPHIC] [TIFF OMITTED] T1791A.171
    
    [GRAPHIC] [TIFF OMITTED] T1791A.172
    
    [GRAPHIC] [TIFF OMITTED] T1791A.173
    
    [GRAPHIC] [TIFF OMITTED] T1791A.174
    
    [GRAPHIC] [TIFF OMITTED] T1791A.175
    
    [GRAPHIC] [TIFF OMITTED] T1791A.176
    
    [GRAPHIC] [TIFF OMITTED] T1791A.177
    
    [GRAPHIC] [TIFF OMITTED] T1791A.178
    
    [GRAPHIC] [TIFF OMITTED] T1791A.179
    
    [GRAPHIC] [TIFF OMITTED] T1791A.180
    
    [GRAPHIC] [TIFF OMITTED] T1791A.181
    
    [GRAPHIC] [TIFF OMITTED] T1791A.182
    
    [GRAPHIC] [TIFF OMITTED] T1791A.183
    


                           W I T N E S S E S

                              ----------                              
                                                                   Page
Black, S. K......................................................   135
D'Agostino, T. P.................................................     1
Donald Admiral K. H..............................................     1
Harencak, Brigadier General Garrett..............................     1

                                  <all>

</pre></body></html>
